<html>
<title> - COMPREHENSIVE CONSERVATION PLANNING AND THE OPERATION AND MAINTENANCE BACKLOG IN THE NATIONAL WILDLIFE REFUGE SYSTEM</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





COMPREHENSIVE CONSERVATION PLANNING AND THE OPERATION AND MAINTENANCE 
            BACKLOG IN THE NATIONAL WILDLIFE REFUGE SYSTEM

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 29, 2001

                               __________

                           Serial No. 107-11

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNEMENT PRINTING OFFICE
71-407 DTP                  WASHINGTON : 
2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. "Billy" Tauzin, Louisiana       Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. "Butch" Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. "Billy" Tauzin, Louisiana           Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 29, 2001...................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     1
    Jones, Hon. Walter B. Jr., a Representative in Congress from 
      the State of North Carolina................................     3
        Prepared statement of....................................     4
    Underwood, Hon. Robert, a Delegate to Congress from Guam.....     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Ashe, Daniel, Chief of the National Wildlife Refuge System, 
      U.S. Department of the Interior............................     5
        Prepared statement of....................................     6
    Beard, Daniel P., Chief Operating Officer, National Audubon 
      Society....................................................    13
        Prepared statement of....................................    15
    Bohlen, Curtis, Chairman of the Board, National Wildlife 
      Refuge Association.........................................    22
        Prepared statement of....................................    23
    Horn, William P., Director of National/International Affairs 
      and Washington Counsel, Wildlife Legislative Fund of 
      America....................................................    10
        Prepared statement of....................................    11
    Sparrowe, Dr. Rollin D., President, Wildlife Management 
      Institute..................................................    18
        Prepared statement of....................................    20

Additional materials supplied:
    Matson, Noah, Refuge Program Manager, Defenders of Wildlife, 
      Statement submitted for the record.........................    40

 
 COMPREHENSIVE CONSERVATION PLANNING AND THE OPERATION AND MAINTENANCE 
             BACKLOG IN THE NATIONAL WILDLIFE REFUGE SYSTEM

                              ----------                              


                        Thursday, March 29, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:50 a.m., in 
Room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. I think what we will do this morning, we 
have Dan Ashe of the Fish and Wildlife Service; Mr. Bill Horn, 
Director of National/International Affairs and Washington 
Counsel, Wildlife Legislative Fund of America, Bill, if you 
will come up; and we have Mr. Daniel Beard, Senior Vice 
President of the National Audubon Society, Mr. Beard, if you 
will come up; and Dr. Rollin Sparrowe, President of the 
Wildlife Management Institute. Is Dr. Sparrowe here? And Mr. 
Curtis Bohlen, Chairman of the Board, National Wildlife Refuge 
Association. Is Mr. Bohlen here? Oh, there he is. Yes, sir, 
there is Mr. Bohlen. Now, is Dr. Sparrowe here yet? Not here 
yet.
    Thank you, gentlemen. We look forward to your testimony so 
we can uncover the mystery behind the backlog on our wildlife 
refuges and try to understand the nature of how we should 
manage and create conservation programs for our refuges.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Now that the markup is complete, the Subcommittee will begin its 
hearing on comprehensive conservation planning and the operation and 
maintenance backlog in the National Wildlife Refuge System.
    The statutory mission of the System is to administer a national 
network of lands and waters for the conservation, management, and where 
appropriate, restoration of the fish, wildlife, and plant resources and 
their habitats within the United States for the benefit of present and 
future generations of Americans . The System also supports compatible 
recreation and an extensive public education program.
    In 1997, Congress directed the Service to prepare comprehensive 
conservation plans for national wildlife refuges within 15 years. I 
understand that 22 of those plans are complete, and look forward to 
hearing from the witnesses today on what is needed to complete this 
planning process.
    To manage the fish, wildlife, and plant resources on 94 million 
acres of System land and host over 35 million visitors, the Service 
employs a large experienced staff, an enthusiastic and indispensable 
volunteer corps, and an extensive inventory of facilities and 
equipment. These facilities include about 5,000 buildings; 2,000 
utility systems; over 10,000 miles of dikes and levees; about 5,500 
miles of public roads; and over 10,000 miles of fences.
    Last year the Service received $261 million to operate and maintain 
the System. This covers the paychecks and materials needed to keep the 
employees, volunteers, facilities and equipment at work throughout the 
year. Unfortunately, the Service estimates that it needs significant 
additional Of&M resources to fulfill its mission, goals, visitor needs, 
and the various legal and regulatory mandates that Congress has placed 
on the System. I look forward to hearing from the witnesses how to meet 
those additional needs which are essential to the effective operation 
of the System in the future.
                                 ______
                                 
    Mr. Gilchrest. Before we begin, Mr. Underwood, do you have 
any opening statement? I will recognize the gentleman from 
Guam.

 STATEMENT OF THE HONORABLE ROBERT A. UNDERWOOD, A DELEGATE TO 
                       CONGRESS FROM GUAM

    Mr. Underwood. Thank you, Mr. Chairman, and good morning 
again.
    After reading through the background memo for this 
morning's hearing and learning more about the billion dollar 
operations of the Wildlife Service, maintenance and 
construction backlog, I was a little concerned.
    I am also reminded of the old saying that, when you find 
yourself in a hole, the first thing to do is to stop digging, 
but, Mr. Chairman, it appears that neither the Fish and 
Wildlife Service nor the Congress have put down their shovels 
yet. Moreover, if the magnitude of the projected cuts for the 
Department of the Interior, as outlined by the President's 
Fiscal Year Budget 2002 Summary are anywhere near accurate, it 
would appear that the President may start digging his own hole 
as well.
    We are faced with a quandary. The National Wildlife Refuge 
System, the only system of Federal lands dedicated exclusively 
for fish and wildlife conservation, may be a victim of its 
success. Obviously, the continued expansion of the Refuge 
System by both the Fish and Wildlife Service and Congress, has 
fueled additional budgetary demands. But the reality is that 
both the Service and the Congress are responding to the 
public's support for expanded opportunity to observe and enjoy 
fish and wildlife resources. In fact, dedicated funding to 
support Federal and state land acquisition for fish and 
wildlife habitat was one of the few provisions of the CARA 
legislation supported by an overwhelming majority in the House 
last Congress.
    I am sympathetic to the dilemma confronting refuge 
managers. We should not forget that many of the factors 
contributing to this backlog are beyond their control. 
Equipment does wear out and need replacement; facilities do 
deteriorate and need renovation. Increased public visitation 
does create new stresses and demands.
    These factors, all of these factors contribute to the 
frustration that I am sure many people in the Refuge System 
experience on a daily basis.
    Mr. Chairman, if the Refuge System ever hopes to address 
new challenges, such as the comprehensive conservation planning 
and invasive species eradication, Congress and the 
administration will need to summon the will to take steps 
toward eliminating this backlog. The inescapable reality is 
that if we want to provide the type of refuge system that the 
public wants and expects, we will have to find the funds to pay 
for it. With these thoughts in mind, I welcome our witnesses, 
and I look forward to hearing your views as well as the views 
of the other members of the Committee.
    [The prepared statement of Mr. Underwood follows:]

    Statement of The Honorable Robert Underwood, Ranking Democrat, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Thank you Mr. Chairman, and good morning.
    After reading through the background memo for this morning's 
hearing and learning more about the billion dollar operations, 
maintenance and construction backlog afflicting our National Wildlife 
Refuge System, I was distressed.
    I was also reminded of the old saying, When you find yourself in a 
hole, the first thing to do, is to stop digging. But, Mr. Chairman, it 
would appear that neither the Fish and Wildlife Service nor the 
Congress have put down their shovels yet.
    Moreover, if the magnitude of projected budget cuts for the 
Department of the Interior as outlined in the President's Fiscal Year 
2002 budget summary are anywhere near accurate, it would appear that 
the Bush Administration may start digging its own hole with backhoe.
    Mr. Chairman, we are faced with a quandary. The National Wildlife 
Refuge System the only system of Federal lands dedicated exclusively 
for fish and wildlife conservation may be a victim of its own success.
    Obviously the continued expansion of the Refuge System, by both the 
Fish and Wildlife Service and the Congress, has fueled additional 
budgetary demands. But the reality is that the Service and the Congress 
are simply responding to the public's unrelenting demand for expanded 
opportunities to observe and enjoy fish and wildlife resources.
    In fact, dedicated funding to support Federal and state land 
acquisition for fish and wildlife habitat was one of the key provisions 
of the CARA legislation supported by an overwhelming majority in the 
House last Congress.
    I am sympathetic to the dilemma confronting refuge managers. We 
should not forget that many factors contributing to this backlog are 
beyond their control: equipment does wear out and need replacement; 
facilities do deteriorate and need renovation; increased public 
visitation does create new stresses and demands, especially for law 
enforcement. All of these factors frustrate the Refuge System from 
realizing its true potential.
    Mr. Chairman, if the Refuge System ever hopes to address new 
challenges such as comprehensive conservation planning and invasive 
species eradication, Congress and the Administration will need to 
summon the will to eliminate this backlog. The inescapable reality is 
that if we want to provide the type of Refuge System that the public 
wants and expects, we will have to pay for it.
    With those thoughts in mind, I welcome our witnesses, and I look 
forward to hearing your views.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Pombo? Mr. Jones?

      STATEMENT OF THE HONORABLE WALTER B. JONES, JR., A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Mr. Chairman, I would like to submit a statement 
for the record, but I also look forward to this hearing. We 
have a lodge known as Lake Mattamuskeet Lodge that is 85-years-
old in the district. And I want to say that the relationship 
with Fish and Wildlife in the Third District of North Carolina 
has been excellent, and we very much appreciate that 
relationship, but we have got a real serious problem as it 
relates to the structure of the lodge at Lake Mattamuskeet, and 
at the proper time I will have questions I would like to ask of 
the panel. Thank you.
    [The prepared statement of Mr. Jones follows:]

 Statement of The Honorable Walter B. Jones, Jr., a Representative in 
               Congress from the State of North Carolina

    Thank you Mr. Chairman for holding this important hearing.
    I first want to start off by saying that I consider myself 
fortunate to have the United States Fish & Wildlife Service play such a 
prominent role in North Carolina. In my Congressional district there 
are eight National Wildlife Refuges and the stewardship provided by the 
Fish & Wildlife Service has been nothing short of exemplary. You have 
been a flexible and honest partner with my constituents and me and for 
that I thank you.
    But we have a monumental challenge before us. As many of you know, 
the US Fish & Wildlife Service closed the Lodge at Lake Mattamuskeet 
Wildlife Refuge in November of last year. While the closure of the 85-
year old structure was warranted due to structural and safety concerns, 
many in North Carolina and elsewhere were disappointed.
    The Lodge has a special place in Eastern North Carolina heritage. 
Lake Mattamuskeet Lodge has played a number of differing roles in its 
long and proud history. When first built in 1915 it was at that time 
the largest capacity pumping plant in the world. In 1934 the United 
States government bought Lake Mattamuskeet and created a migratory bird 
refuge on the property. The pumping plant was converted into the Lodge 
and the site was open to the public from 1937 until 1974. Although 
closed to the public, the structure was placed on the National Historic 
Register in 1981.
    The Lodge reopened in 1993 and has since served as an environmental 
education facility, cultural activity center, community center and 
conference center. Every year the Mattamuskeet Wildlife Refuge serves 
as the gathering point for Swan Days, in which the Lodge serves as the 
centerpiece for this wildly popular and well-attended event.
    Cost estimates for repairs to the United Fish & Wildlife Service 
facility are $3 million to make the Lodge safe and an additional $5.7 
million to renovate the structure so future generations may also enjoy 
this unique part of American heritage. A local citizens group, 
Partnership for the Sounds, has contributed more than $800,000 to the 
Lodge over the past few years and without them the Lodge never would've 
been reopened in 1993.
    As this is part of its inventory, the United States Department of 
the Interior bears the Federal responsibility for the preservation of 
this building. Further deterioration of this structure is not an 
option. Somebody at the Department and the Fish & Wildlife Service 
needs to make this a priority. Under the previous Administration, the 
Department of Interior conducted what I like to refer as ``museum 
maintenance'' on public lands, a ``look but don't touch'' approach to 
infrastructure maintenance. On the other hand, I am encouraged by 
President Bush and Secretary Norton's statements regarding deferred 
maintenance on our Federal lands. With the National Wildlife Refuge 
Centennial celebration fast approaching, it is critical we erase this 
maintenance backlog.
    Mr. Chairman, thank you for holding this hearing and I look forward 
to the testimony offered by the witnesses.
                                 ______
                                 
    Mr. Gilchrest. Yes, sir? Dr. Sparrowe, welcome to the 
hearing.
    Dr. Sparrowe. Thank you.
    Mr. Gilchrest. And we just barely got started, so you 
haven't missed anything other than a few comments from the 
elected officials, so other than that, you are just fine.
    We look forward to your testimony, and what we are going to 
try to understand here this morning, from your collective 
perspectives, is how we can pursue aggressively the problem 
with the maintenance backlog in the Nation's refuge system, 
raise the level of awareness to refuges to as close to the 
level of awareness from the public and elected officials of our 
national parks, and try to understand, from your perspectives, 
the best way to conserve the biological diversity of the 
various refuges in different parts of the country to meet the 
needs of wildlife, and the desires of people to see and use 
those refuges.
    So we will start with Mr. Dan Ashe.

 STATEMENT OF DAN ASHE, CHIEF OF THE NATIONAL WILDLIFE REFUGE 
            SYSTEM, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Ashe. Thank you, Mr. Chairman. These are historic times 
for the National Wildlife Refuge System. We are approaching our 
100th birthday, and many events have unfolded during the last 
few years that I think are building consensus and momentum that 
promise to make the Refuge System even a more powerful 
conservation tool, and will open ever greater opportunities for 
Americans to enjoy their wildlife heritage.
    In 1997 the National Wildlife Refuge System Improvement Act 
spelled out a wildlife conservation mission for the Refuge 
System, and also recognized the outstanding opportunities that 
our refuges provide for compatible wildlife-dependent 
recreation.
    In 1998 the Congress passed the Volunteer and Community 
Partnership Enhancement Act, and our relationship with 
community supporters has flourished since then. There are now 
nearly 200 friends and cooperating associations on our refuges 
nationwide, and our legion of volunteers has grown to about 
30,000, ten times our employee work force.
    In October 1998 the Service brought together all of its 
refuge managers for the first time ever, and the plan that 
sprang from that gathering, Fulfilling the Promise, gives us a 
compass to follow as we attempt to build a stronger refuge 
system.
    Congress, again, in the last congress, recognized the 100th 
anniversary of the Refuge System by passing the National 
Wildlife Refuge System Centennial Act, and that law challenges 
us to use the occasion of the Refuge System centennial to 
broaden our public understanding, expand partnerships and 
strengthen our stewardship.
    As a result of these and many other significant events, we 
have developed a strong consensus on the future direction of 
the Refuge System.
    As we look to the future, our greatest responsibility and 
priority is taking care of what we have, the maintenance of the 
facilities and equipment that we need to accomplish our 
mission. The refuge system has $7 billion worth of buildings, 
utilities, dikes, levees, roads, trails, vehicles and tools, 
that we must maintain in order to protect their value, keep 
them safe and in good working order.
    Currently our backlog of deferred maintenance includes over 
8,000 projects totaling about $830 million. In Fiscal Year 2001 
we have about $95 million available to address refuge 
maintenance needs, and with this level of funding, we will make 
additional progress toward our ultimate goal of reducing the 
maintenance backlog. We have made progress toward addressing 
our highest priority maintenance needs, and we have slowed the 
rate of growth in our maintenance backlog from 30 percent 
annually just a few years ago, to about 7 percent today.
    As with maintenance, we are also attempting to inventory 
and prioritize our operational needs. Our refuge operating 
needs system currently catalogs $1.1 billion in refuge 
operational projects. Many of our refuges do not have a full-
time biologist or law enforcement officer, or have the 
resources to support monitoring wildlife populations and 
habitat conditions, essential parts of the successful operation 
of a refuge.
    Mr. Chairman, one of our most pressing operational needs is 
the development of and implementation of comprehensive 
conservation plans or CCPs for our refuges. These plans provide 
a long-term vision and serve as a foundation for sound and 
consistent and participatory refuge management. To date we have 
completed 22 comprehensive conservation plans. Another 72 are 
under way. A total of 282 comprehensive conservation plans will 
ultimately need to be completed.
    The initial plans are always the most difficult, and on 
some of our refuges, our planning efforts are being complicated 
by limited staff, training, and shortcomings in good scientific 
background information.
    We have learned a great deal in our efforts to date. For 
example, in the comprehensive conservation planning for 
National Wildlife Refuges in Western Tennessee, we are working 
jointly with State officials to plan for our refuges and for 
State-managed areas concurrently. By planning in this manner, 
we are involving partners, we are sharing resources, and 
expenses, and we are developing a better product.
    Mr. Chairman, we appreciate your support and the 
Committee's support in helping us meet our operational needs. 
Since 1997 funding for refuge operations has increased from 
$155 million to $225 million. Our people continue to do great 
work on the ground. They manage refuges to provide tremendous 
benefits for wildlife and spectacular opportunities for 
Americans to get outdoors and enjoy their wildlife heritage. We 
are getting increasingly important work from our growing 
volunteer force. We are getting expanding support from our 
refuge friends' groups and cooperating associations. We are 
growing our fee demonstration program. In short, we are being 
innovative in meeting our needs, which I believe has always 
been a hallmark of our refuge managers and the Refuge System.
    The Service has made substantial progress in identifying 
and categorizing its priority operation and maintenance needs, 
an essential step in developing a long-term plan for meeting 
those needs. By working together, we can celebrate our first 
century of wildlife conservation by building a centennial 
legacy that fulfills the promises we have made for our second 
century.
    Thank you, Mr. Chairman, and Committee members, for giving 
me this time to share my thoughts with you, and I am looking 
forward to answering your questions.
    [The prepared statement of Mr. Ashe follows:]

  Statement of Dan Ashe, Chief, National Wildlife Refuge System, U.S. 
                       Department of the Interior

    Mr. Chairman, thank you for this opportunity to address the 
operations and maintenance needs of America's National Wildlife Refuge 
System and the comprehensive conservation planning process. We 
appreciate the chance to join with you and reflect upon the Refuge 
System's nearly one hundred years of service to the American people, 
assess our progress in advancing the System's conservation mission, and 
identify our needs and opportunities as we look toward a new century of 
conservation.
    These are historic times for the National Wildlife Refuge System. 
As we approach the centennial anniversary, we are proud of the progress 
we have made together in strengthening the Refuge System. Several 
important events during the last few years have given us the 
opportunity to make the Refuge System an even more powerful 
conservation tool and to provide even greater opportunities for people 
to enjoy the Refuge System. These events set the stage for us to 
address our most pressing operational and maintenance needs, and to 
develop comprehensive conservation plans for each refuge in the System.
    The first important milestone occurred in 1997, when a concerted 
bipartisan effort led to the passage of the National Wildlife Refuge 
System Improvement Act. The Refuge System Improvement Act spelled out a 
singular wildlife conservation mission for the Refuge System:
    The mission of the National Wildlife Refuge System is to administer 
a national network of lands and waters for the conservation, 
management, and where appropriate, restoration of the fish, wildlife, 
and plant resources and their habitats within the United States for the 
benefit of present and future generations of Americans.
    In the House Report accompanying the bill, this Committee left no 
doubt:
    . . . the fundamental mission of our Refuge System is wildlife 
conservation: wildlife and wildlife conservation must come first.
    The Refuge System Improvement Act also recognized the outstanding 
recreational opportunities on refuges. The Refuge System has long 
provided some of the Nation's best hunting and fishing, and our refuges 
continue to support these deeply rooted American traditions. The law 
established compatible wildlife-dependent recreation such as hunting, 
fishing, wildlife observation, photography, environmental education, 
and interpretation, as priority public uses of the Refuge System.
    Among other things, this far-reaching law required comprehensive 
conservation planning for each refuge, and set standards to assure that 
all uses of refuges were compatible with their purposes and the 
System's wildlife conservation mission. It also required that we 
conserve the biological diversity, integrity, and environmental health 
of refuges, and that we consider the conservation of the ecosystems of 
the United States in planning the growth of the Refuge System.
    Building on the Refuge System Improvement Act, Congress, in 1998, 
passed the Volunteer and Community Partnership Enhancement Act. As a 
result, the Service's relationship with community supporters has 
flourished. There are now nearly 200 Friends and Audubon Refuge Keeper 
(ARK) groups across the country working actively with the Service to 
conserve wildlife and serve refuge visitors. The number of volunteers 
supporting the National Wildlife Refuge System (about 30,000) is more 
than ten times the number of its actual workforce. Volunteers perform 
25 percent of all work on refuges nationwide. Given those figures, it 
is easy to see why these programs are so important to a healthy and 
vibrant Refuge System. As you know, great active Friends groups like 
those at Blackwater NWR are a backbone of support. Our volunteers are 
an intrinsic part of the day-to-day operation of refuges. We cannot do 
our job without them. We need more of them.
    In October 1998, the Service convened all of its refuge managers 
for the first time in the 95-year history the Refuge System. This 
historic gathering took place in Keystone, Colorado. The refuge 
managers were joined by the Service leadership and hundreds of our 
conservation partners with a goal of crafting consensus around a 
strategic vision for the Refuge System that would meet the challenges 
and opportunities of the 21st century, and guide us in implementing the 
provisions of the Refuge System Improvement Act. The plan that sprang 
from Keystone Fulfilling the Promise--was built from the ground up by 
the field employees who maintain and manage our national wildlife 
refuges, but also incorporated the insights of the agency's senior 
managers, its biologists, law enforcement officers and realty 
professionals, and our partners, friends and volunteers.
    Reinforcing the Refuge System Improvement Act's provisions to raise 
public understanding and appreciation for the Refuge System, Congress 
recognized the 100th anniversary of the Refuge System as an opportunity 
for celebration, commemoration, and also as a time to invest in its 
conservation legacy by passing the National Wildlife Refuge System 
Centennial Act of 2000 with overwhelming bipartisan support.
    This law calls for bold action on several fronts: broadening public 
understanding and appreciation for these unique national treasures, 
expanding partnerships for their care, and strengthening the 
stewardship and infrastructure of the 535 refuges and thousands of 
small prairie-wetlands making up the Refuge System.
    The Centennial Act calls for the establishment of a Centennial 
Commission, a group of prominent citizens and Members of Congress who 
will guide the centennial celebrations and help to build support and 
awareness for the Refuge System. The Centennial Act also calls on the 
U.S. Fish and Wildlife Service to develop a long-term plan to address 
the highest priority operations, maintenance, and construction needs of 
the National Wildlife Refuge System by March 2002. With that, I will 
turn to a discussion of our operational and maintenance needs.
Refuge Maintenance
    Our first priority is taking care of what we have: the maintenance 
of the facilities and equipment we need to accomplish our mission. The 
Refuge System has $7 billion worth of buildings, utilities, dikes and 
levees, roads, fences, dams, vehicles and tools, that we must maintain 
to protect their value and keep them safe and in good working order.
    Refuge maintenance is addressed in three different but related 
programs: Refuge Operations supports salaries for maintenance workers, 
laborers, and equipment operators; Construction supports large and 
complex maintenance and capital improvement projects that normally 
cannot be accomplished in 1 year; and the Refuge Maintenance program 
which supports annual maintenance, equipment repair and replacement, 
and deferred maintenance backlogged projects. In addition, since TEA-
21, the Federal Lands Highways program funds help address additional 
maintenance projects.
    Thanks to your support, the efforts of the Cooperative Alliance for 
Refuge Enhancement (CARE), our Five Year Deferred Maintenance and 
Equipment Replacement list, and our Maintenance Management System data 
base, we have made progress addressing the highest priority needs of 
our facilities and equipment over the past few years. I'm pleased to 
say we have slowed the rate of growth in our maintenance backlog from 
30 percent just a few years ago to 7 percent today. We currently 
estimate a backlog of deferred maintenance projects, that currently 
includes 8,092 projects, of roughly $830 million, including $172 
million for equipment replacement and repair.
    In Fiscal Year 2001, Congress appropriated a total of $75 million 
for Refuge System maintenance ($56 million in Title I and $19 million 
in Title VIII) and we are receiving $20 million annually in TEA-21 
funds through the Federal Lands Highways program. Therefore, in total, 
we have $95 million available for refuge maintenance during the current 
fiscal year, and with this level of funding we will make additional 
progress toward our ultimate goal of reducing the maintenance backlog.
Refuge Operations
    Now I want to shift gears from maintenance and talk about refuge 
operations for a few moments. Refuge staff have identified, categorized 
and prioritized $1.1 billion in refuge operational projects. Thinking 
about refuge operations requires a slightly different perspective than 
thinking about refuge maintenance. Refuge operations directly support 
the refuge staff and their activities to fulfill the mission of the 
refuge while refuge maintenance supports the facilities and equipment 
to ensure the mission of the refuge can be carried out efficiently and 
effectively. Refuge operational needs and opportunities, if 
implemented, will forward our mission in managing refuge lands. These 
needs and opportunities are entered into our Refuge Operating Needs 
System (RONS) as they are identified by refuge staff.
    To better understand the most pressing operational needs on 
refuges, Congress directed us--in the Committee report accompanying the 
Fiscal Year 2000 Interior Appropriations bill--to develop a tiered 
approach to identify priority operating needs; aspects of refuge 
management staff, equipment, and supplies that are basic components of 
carrying out management of the Refuge System. We have responded to that 
Congressional direction and tiered the RONS data base and now have a 
comprehensive view of the most pressing operational needs of the Refuge 
System. For instance, many of our refuges do not have a full-time 
biologist or law enforcement officer or have the resources to support 
monitoring wildlife populations and habitat conditions. In some cases a 
full-time biologist or a law enforcement officer may not be necessary 
to fulfill the mission of a particular refuge; however, in many other 
cases, they are an essential part of the successful operation of a 
refuge. In addition to priority operating needs, there is a wealth of 
opportunity to do good things for wildlife within the Refuge System. 
These opportunities are included in the second tier of identified 
refuge operations projects.
    Additionally, we have unmet needs associated with establishment of 
new refuges that are categorized in the RONS data base, in order to 
respond to GAO's report entitled, Agency Needs to Inform Congress of 
Future Costs Associated with Land Acquisitions. That report recommended 
that the Service estimate future operations and maintenance costs for 
each new refuge.
    Mr. Chairman, we appreciate your support in helping us meet our 
operating needs. Since 1997, funding for refuge operations has 
increased from $155 million to $225 million. Our people continue to do 
great work on the ground and to manage our refuges to provide 
tremendous benefits to wildlife and spectacular opportunities for 
Americans to get outdoors and enjoy their wildlife heritage. We are 
getting increasingly important work from a growing volunteer workforce. 
We are getting expanding support from our Refuge Friends groups and 
cooperating associations. We are growing our fee demonstration 
programs. In short, we are being innovative in meeting our needs, which 
I believe has always been a hallmark of refuge managers and the Refuge 
System.
    The Refuge System has made substantial progress in identifying and 
categorizing its priority operation and maintenance needs and 
opportunities, an important step in developing a long-term plan for 
meeting those needs. In the coming months, the Service will present its 
findings to the Department of the Interior and OMB, and work toward 
developing a long-term plan to address these needs and opportunities.
Comprehensive Conservation Planning
    I would like to discuss the status of our comprehensive 
conservation planning efforts in some detail. The planning process is 
premised on strong partnerships with State fish and wildlife agencies. 
It provides us with an opportunity to bring science to bear on managing 
refuges, assuring an ecological perspective to how refuges fit into the 
greater surrounding landscapes. The planning process also provides 
citizens with a meaningful role in helping to shape future management 
of individual refuges, recognizing the important roles refuges play in 
the lives of nearby communities.
    Refuge comprehensive conservation plans are similar, in concept, to 
land use or general management plans developed by the Bureau of Land 
Management, the Forest Service, and the National Park Service. These 
plans provide a long-term vision and serve as a foundation for sound, 
consistent, participatory refuge management. To date, we have worked 
with the States and local communities to complete 22 comprehensive 
conservation plans. Another 72 are underway. This year, we expect to 
complete 22. A total of 282 comprehensive conservation plans will 
ultimately need to be completed for the 535 existing units of the 
National Wildlife Refuge System.
    We have made slow but good progress toward completing refuge 
comprehensive conservation plans by 2012 as required by the Refuge 
System Improvement Act. The initial plans are always most difficult and 
we found that on some refuges our planning efforts were complicated by 
limited staff, training, and shortcomings in good scientific background 
information. Additionally, we spent considerable time and effort 
developing our planning policy. We also have made efforts to address 
these shortcomings by training over 300 refuge staff in comprehensive 
conservation plan development to date. We believe we have laid a good 
framework for making better progress.
    We have learned a great deal in our efforts to date. For example, 
in the comprehensive conservation planning for National Wildlife 
Refuges in western Tennessee, we are working jointly with State 
officials to plan for refuges and State managed areas concurrently. We 
are looking at how the refuges work together with areas managed by the 
State to protect wildlife throughout the region. This broad-based, 
ecological approach to planning can serve as a model for how we can 
look at the health and integrity of the landscape at differing scales 
that meet local needs. By planning in this manner, we involve partners, 
share resources and expenses, and develop a better product.
    Just how large a role the Refuge System has come to play in the 
lives of Americans nationwide will soon be symbolized by the arrival of 
the centennial anniversary of Theodore Roosevelt's designation of 
Pelican Island as the first National Wildlife Refuge. This has prompted 
reflection and anticipation as well as providing a tremendous 
opportunity to raise public understanding and appreciation for the 
Refuge System. Together we can celebrate our first century of wildlife 
conservation by building a centennial legacy that fulfills the promises 
we have made for our second century.
    Thank you for giving me this time to share my thoughts with you. I 
will be happy to respond to whatever questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Ashe.
    Next is Mr. Bill Horn. Welcome.

     STATEMENT OF WILLIAM HORN, ON BEHALF OF THE WILDLIFE 
                  LEGISLATIVE FUND OF AMERICA

    Mr. Horn. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Subcommittee, on behalf of 
the Wildlife Legislative Fund of America, WLFA, I appreciate 
the opportunity to appear today regarding management of the 
National Wildlife Refuge System, and implementation of the 1997 
National Wildlife Refuge System Improvement Act.
    My comments will focus primarily on policy issues relating 
to administration of the Refuge System and implementation of 
the 1997 Act. Refuge funding, which has been identified as a 
major issue since the mid-1980's, when, during my tenure at 
Interior, we established the Accelerated Refuge Maintenance 
Program in 1985 to try to get a grip on the backlog.
    Fundamentally, one of the difficulties has been that the 
Refuge System has lacked the broad-based public constituency 
that the National Park Service has, and as a result, this 
spectacular system, which is of larger magnitude with more 
units and more diversity, seems, particularly within the 
Department, and to a lesser degree within Congress, to be 
treated as a sometimes forgotten stepchild. I think it is safe 
to say among the community of interests that supports the 
Refuge System, we hope that is something that can be corrected, 
and we are all working together to correct over time.
    Obviously, in order to secure the type of public support 
which will translate into solid funding for addressing adequate 
maintenance and operation of the Refuge System, requires a 
strong partnership with the community of users. And anglers and 
hunters have essentially been that support group for the Refuge 
System since its inception, and have been strong supporters, 
both with their volunteer efforts and their dollars. However, I 
think it is safe to say that in the last few years, the 
sporting community has felt somewhat less than welcome, and 
felt that in some circumstances our support was not necessarily 
wanted. That needs to change, because having strong support 
from the hunting and fishing community, in our opinion, is 
very, important to the long-term health and benefit of this 
system.
    Having said that, let me focus briefly on some of the 
policy concerns we have. They fall into three categories. One, 
that there are substantive concerns about policies that the 
Service is developing to guide implementation of the 1997 Act. 
Second is the role or, frankly, lack of appropriate role for 
state fish and wildlife agencies in the refuge planning 
process. Third, in our statement, we have identified some 
specific issues and specific units that we think are emblematic 
of some of the problems that we are facing.
    It is our opinion that these types of issues and concerns 
do indeed erode support among the sporting community, and we 
think that erosion needs to be halted so we can all work 
together toward addressing some of these funding issues.
    Let me cite one example of the concerns that we have got. 
One of the critical features of the 1997 Improvement Act was 
the identification of wildlife-dependent recreation, including 
hunting and fishing as priority public uses. And, Congress, 
within the statute, expressly recognized the legitimacy of 
these traditional activities, and they established only one 
statutory caveat, that these activities need to be compatible. 
Now, if found to be compatible the law and legislative history 
make it abundantly clear that these uses are to be facilitated.
    Now, in contrast, our review of the proposed policies 
indicates a new threshold requirement is introduced that is 
found nowhere in the statute, and that is a precompatibility 
determination of appropriateness. This policy appears to spell 
out that an activity must be found appropriate before you even 
begin to address the statutory requirement of compatibility. 
Now, in conversations with Service personnel, including Mr. 
Ashe, we are assured that this is not the intent of the 
policies. We are glad that the Service recently extended the 
comment period, and we hope that we have an opportunity to work 
together with the Service and work with the Subcommittee to 
assure that issues like this are resolved in a manner 
completely consistent with the 1997 Act that was so carefully 
worked out among the parties at this table, and obviously, with 
Congress.
    In addition to these substantive problems, we have 
identified some serious procedural difficulties, most notably, 
that individual state fish and wildlife agencies are not being 
accorded an appropriate substantive role in refuge planning. 
Many of the agencies believe that the process is really akin to 
lip service. There are a lot of meetings, there is a lot of 
listening, there is a lot of nodding of heads, but it never 
produces any substantive results. We would hope that as the 
planning procedures go ahead, that the Service will take 
Secretary Norton at her word, and put greater emphasis on the 
necessity for partnership with the state agencies. They have 
primacy over resident fish and wildlife. They are not an 
ordinary interest group like all the rest of us here at this 
table, and I think that the Service should accord them 
appropriate status.
    I will be glad to answer any questions, and thank you again 
for the opportunity to appear this morning.
    [The prepared statement of Mr. Horn follows:]

  Statement of William P. Horn, on behalf of The Wildlife Legislative 
                         Fund of America (WLFA)

    Mr. Chairman, on behalf of the Wildlife Legislative Fund of America 
(WLFA), I appreciate the opportunity to testify today regarding 
management of the National Wildlife Refuge System and implementation of 
the 1997 National Wildlife Refuge System Improvement Act (NWRSIA). WLFA 
was organized in 1977 for the purpose of protecting the American 
heritage to hunt, fish, and trap and supporting scientific wildlife 
management. It pursues these objectives at the Federal, state, and 
local level on behalf of its over 1.5 million members and affiliates.
    WLFA was deeply involved in the enactment of NWRSIA. We worked 
closely with Rep. Don Young during the introduction in 1995 of the bill 
that ultimately became the Refuge Improvement Act. WLFA strongly 
supported that measure and subsequent related bills, we participated in 
the negotiations that yielded the bill passed by Congress, and were 
pleased to be present in the Oval Office when the Act was signed by the 
President. Since then, we have closely monitored implementation 
activities by the U.S. Fish and Wildlife Service (FWS) and the 
Department of the Interior providing substantive comments and opinions 
regarding the letter and spirit of the Act.
    We appreciate that FWS has a major task in preparing the 
Comprehensive Conservation Plans (CCP s) required for each unit or 
complex of the System. In general, the CCP process has moved ahead in a 
timely manner and we commend FWS for not getting caught behind the 
eight ball in keeping up with the planning schedule.
    WLFA does, however, have significant concerns regarding (1) 
substantive policies developed by FWS to guide implementation of the 
Act, (2) the role of State fish and wildlife agencies in the planning 
process, and (3) specific issues at specific units where Refuge unit 
purposes or legitimate uses are being sidetracked. These concerns are 
outlined in detail below.
Substantive Policies
    FWS invested considerable time and effort in preparing a series of 
policies to guide implementation of NWRSIA. These include policies on 
(1) biological integrity, (2) mission and goals, (3) recreation, (4) 
appropriate uses, and (5) wilderness. Of these, only biological 
integrity has been completed in addition to others addressing 
compatibility and planning. WLFA has serious substantive objections to 
the five enumerated policies. In each case, we are persuaded that the 
policies do not adhere to the letter or spirit of the 1997 Act and 
require Refuge managers to make findings or other threshold 
determinations not found within the statute or contemplated by the 
drafters of the Act.
    The policy on biological integrity is a prime example. Wildlife 
conservation is the preeminent purpose of the Refuge System and this is 
spelled out clearly in the Act. This objective is codified in the 
mission that applies to all units and is part of the specific purposes 
that similarly affect each Refuge. The term biological integrity is 
used once in the statute as part of 13 subparagraphs instructing how 
the system is to be managed. This policy has the apparent effect of 
elevating this one Congressional prescription among many to a 
preeminent position. Indeed, the policy at paragraph 3.3 specifies that 
this policy is an additional directive for refuge managers to follow 
while complying with refuge purposes and mission.
    The policy, adopted in final form last year, also equates 
biological integrity with either natural or historic conditions defined 
to mean those conditions that pre-date significant human impact on the 
landscape. It even sends Refuge managers on archaeological missions to 
try to determine what those historic or natural conditions might have 
been (see 3.13). This backward looking policy is not what Congress 
intended and is not needed for FWS to assure conservation of wildlife 
resources. One of WLFA's concerns is that many refuge units have been 
established to benefit particular species of wildlife (e.g., bighorn 
sheep, moose) or categories of wildlife (e.g, waterfowl). Management to 
optimize habitat for such species may create conditions that are not 
natural or historic and run afoul of this additional requirement not 
part of the law.
    A major achievement of NWRSIA was the identification of wildlife-
dependent recreation including hunting and fishing as priority public 
uses of refuges. Congress expressly recognized the legitimacy of these 
traditional activities on refuge lands and established exactly one 
caveat: these activities need to be compatible. If found to be 
compatible, the law and legislative history make it abundantly clear 
that these uses are to be facilitated on refuges.
    In stark contrast, the proposed policy on uses introduces a brand 
new threshold requirement found nowhere in the statute: 
appropriateness. The policy spells out that an activity, including any 
of the priority public uses, must be found to be appropriate BEFORE the 
issue of compatibility will even be examined. We defy anyone to find 
this additional requirement in the 1997 Act. Congress already 
determined the appropriateness of wildlife-dependent recreation and 
this finding, which exists as a matter of law, must be countermanded at 
the discretion of individual refuge managers.
    Other extra-statutory requirements are found in the pending 
recreation policy. This policy includes a directive that refuge 
managers must ensure (i.e., guarantee) that adequate financial 
resources are or will be available before authorizing hunting or 
fishing programs. This very issue arose in 1993 when a number of 
hunting and fishing programs were slated for closure on the grounds 
that inadequate funding was available. Congress specifically 
countermanded that administrative action and NWRSIA specifically 
amended prior provisions of law to eliminate the necessity of making 
findings of budget or financial adequacy as a precondition of 
authorizing hunting or fishing. WLFA is astounded that the draft policy 
tries to resurrect this condition in the face of express Congressional 
action not once but twice!
    The proposed wilderness policy suffers similar flaws. Rather than 
providing clear objective direction to refuge managers on how to 
accommodate Wilderness Act provisions and wildlife conservation 
objectives, it is a subjective paen to "wilderness values." It tells 
managers that they are to maintain wilderness character by refocusing 
our perception of nature and our relationship to it. (2.5.B). 
Furthermore, it puts the intangible values of wilderness on a par with 
the biophysical features of refuge units. And it too emphasizes 
naturalness as measured by the conditions of pre-European contact. 
(7.10.A). In essence, the default management position becomes leave 
everything alone even if specific refuge purposes encourage management 
for the benefit of particular species of wildlife.
    WLFA intends to comment aggressively on these policies. We hope 
that Congress will exercise its oversight authority to ensure that 
these policies are fully consistent with the letter and spirit of 
NWRSIA.
Procedural Issues
    Besides these substantive policy problems, there are serious 
procedural problems too. Most notably, individual state fish and 
wildlife agencies are not being accorded an appropriate substantive 
role in refuge planning. To the contrary, the state agencies, 
notwithstanding their primacy over management of resident fish and 
wildlife, are being treated like every other ordinary interest group. A 
term heard repeatedly from state agency personnel is lip service. FWS 
meets and consults with its state counterparts without any substantive 
results or consequences. FWS listens politely and proceeds to go its 
own way regardless of what it hears from the states. WLFA is persuaded 
that the relationship between FWS and the state agencies is the worst 
it has ever been. This unfortunate legacy of the previous 
administration must be changed by the new leadership at Interior.
Specific Issues
    We could provide the subcommittee numerous on-the-ground examples 
of the substantive and procedural problems afflicting refuge planning 
and management. Rather than offer a litany of specific matters, we have 
taken the liberty of enclosing two documents that are emblematic of the 
problems. The first is correspondence to FWS from WLFA and the Arizona 
Desert Bighorn Sheep Society regarding management planning at the 
Cabeza Prieta National Wildlife Refuge. The issue there is active 
management to enhance the desert bighorn sheep populations (the reason 
the unit was created) and limitations on management arising from 
Wilderness designations and wilderness management policy. The second 
are a series of letters from the Ohio Division of Wildlife to FWS 
regarding management of the Ohio River Islands National Wildlife 
Refuge. This correspondence paints a picture of frustration, 
substantive and procedural, about the planning for this one particular 
unit. It is safe to say that this frustration is being replicated 
throughout the country.
    Thank you again for the opportunity to appear today. WLFA looks 
forward to working with the Subcommittee to ensure that FWS adheres to 
the letter and spirit of the 1997 Act, substantively and procedurally, 
in administering the National Wildlife Refuge System.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Horn.
    Dr. Beard, National Audubon Society.

STATEMENT OF DANIEL P. BEARD, CHIEF OPERATING OFFICER, NATIONAL 
                        AUDUBON SOCIETY

    Dr. Beard. Thank you. Thank you, Mr. Chairman.
    First of all, I would like to begin by requesting that my 
testimony and a report entitled ``Refuges in Crisis'' be made 
part of the record.
    Mr. Gilchrest. Without objection, so ordered.
    [The aforementioned report has been retained in the 
Committee's official files.]
    Dr. Beard. Mr. Chairman, I came here last year, and used an 
analogy to try to describe why we felt that the problems of the 
National Wildlife Refuge System deserved attention. And what I 
said at that time was that the centennial legislation was a 
little like sending a bouquet of roses to a patient in an 
emergency room. It made the patient feel better, but it didn't 
do much to solve the problem.
    Well, we are here a year later, nine months later anyway, 
and we still have the same set of problems. In the meantime we 
produced a report, which I have entitled ``Refuges in Crisis'', 
trying to outline the nature of the problems that face a 
representative sample of refuges throughout the country.
    We are not just interested in pointing out problems. We are 
interested in solutions. And it seems to us the solutions are 
twofold. First is the need for more money to address funding 
the O&M backlog. We have joined with all the other groups here 
as a participant in the Cooperative Alliance for Refuge 
Enhancement, to try to secure that funding. We have worked with 
many in Congress, including members of this Subcommittee, who 
have been very gracious and very supportive. But money isn't 
the only answer in our view.
    The second solution is to address the problem of what we 
call institutional neglect. Mr. Horn said it well. The refuge 
system simply isn't a priority. I think his words were, it is a 
stepchild, a poor stepchild in the Department and with the 
Service. I think I would use a different analogy, Mr. Chairman, 
and it has to do with my employer, of course. I would call the 
system an ugly duckling which we want to make into a swan. And 
given the massive problems that the Refuge System faces, the 
only solution we see is to pass legislation or use executive 
authority to establish a separate National Wildlife Refuge 
Service, to take the Refuge System out of the Fish and Wildlife 
Service, and to have a separate system.
    Now, many people at this table don't agree with that 
solution, and that is fair enough. But I guess our point is, 
what is their solution? We are ready to talk about any solution 
with anybody at any time. But rather than be accused of crying 
wolf on this issue, I would suggest that you don't take our 
word for the severity of the crisis.
    Mr. Chairman, I would encourage you to invite Secretary 
Norton to accompany you on a tour of refuges, to examine the 
problems they face, hold field hearings or simply talk to 
refuge managers, or friends, or supporters, to find out what is 
taking place in the field. Ask refuge managers whether they 
think there is a crisis. Ask them what they think needs to be 
done.
    It is always easy to sit in Washington, and assume that 
everything outside the Beltway is okay. In our view, it isn't. 
We have surveyed our members, friends of refuges, refuge 
managers, and based on all those inquiries, the answer comes 
back, this is a system that needs help. It needs immediate 
help.
    Mr. Ashe pointed out something very interesting. There are 
over 200 friends' groups. The National Audubon Society has 
formed more than 80 of those over the last four years. It is 
something that we have worked very hard at. In addition to 
that, there are over 30,000 volunteers that work at the Refuge 
System. These people are giving their most valuable commodity, 
their free time, and free labor, to help our National Wildlife 
Refuge System. They care. They know there are problems. They 
know they are needed, and they are doing that.
    In addition to that, we have been working, over the last 
year, to help build that support among friends. Several weeks 
ago, Mr. Chairman, 60 people met on a Saturday morning at 
Blackwater National Wildlife Refuge. You weren't able to be 
with us. Sixty people took the time from their busy schedules 
to come out and learn about the problems of the refuge. What is 
it they could do to help. They have been contributing time and 
energy and effort, writing letters to Congress, meeting with 
Members of Congress and others to try to urge support.
    We had to turn away people at Cape Romaine in South 
Carolina two weeks ago. We had 120 people and we had to put 
them in a room that could only hold 80, and the fire marshal 
made 40 people leave.
    We have had over 50 people at the Upper Mississippi 
Wildlife Refuge in LaCrosse, Wisconsin.
    Pelican Island was also two weeks ago. And we are holding 
another organizing session and training session this weekend at 
San Francisco Bay National Wildlife Refuge.
    It is our hope that within the next few months, we will be 
holding organizing sessions and training sessions to try to 
help people become involved in the process every two weeks, to 
be able to build out support.
    So, Mr. Chairman, I thank you for the opportunity to be 
here with you today, and to once again highlight the problems 
of the National Wildlife Refuge System.
    [The prepared statement of Mr. Beard follows:]

Statement of Daniel P. Beard, Chief Operating Officer, National Audubon 
                                Society

    Mr. Chairman and Members of the Subcommittee:
    On behalf of National Audubon Society's one million members and 
supporters throughout the Americas, I am pleased to be here today to 
discuss the needs of the National Wildlife Refuge System. With 530 
refuges spanning all 50 states and U.S. territories, and a total 
acreage comparable to the state of Montana, the Refuge System is the 
world's largest system of lands dedicated first and foremost to 
wildlife conservation. The Refuge System has great potential to be the 
world's model of wildlife conservation while providing a host of world-
class opportunities for compatible wildlife-related recreation such as 
bird watching, hunting and fishing. As one of the founding members of 
the Cooperative Alliance for Refuge Enhancement (CARE), Audubon has 
worked to ensure this potential is fulfilled through increased 
appropriations for refuge operations and maintenance needs. Working 
with members of this subcommittee and others, these efforts have met 
with success. We are pleased that the Congress has approved increases 
averaging $30 million per year over the past four years.
    Unfortunately, the increases in funding have not been fast enough 
to prevent serious problems from arising. As we indicated in our recent 
report, the National Wildlife Refuge System is a system in crisis.
    Numerous threats, such as incompatible uses, the spread of invasive 
species, declining water quality, and increasing rates of habitat loss, 
are harming birds and wildlife on refuges across the country.
    There are two reasons for this state of affairs. First, the long-
standing backlog of critical operations and maintenance needs is an 
underlying cause of the crisis. Second, there is a serious problem of 
institutional neglect within the Interior Department toward the Refuge 
System. I'd like to discuss each of these issues.
The Longstanding Backlog of Critical Operations and Maintenance Needs
    First, despite some successes, the Fish and Wildlife Service 
generally lacks the fundamental capacity with which to adequately 
address these serious threats to our nation's resources. With its 94 
million acres, 5,000 buildings, 6,500 miles of roads, 2,700 miles of 
dikes, thousands of water control structures, 34 million visitors and 
2,000 species of birds and wildlife, the Refuge System has a massive 
set of needs that expands each year. These needs include both 1) a 
maintenance component, which addresses the System's deteriorating 
infrastructure and provides basic visitor services such as signs and 
trails; and 2) an operations component, which provides refuges with the 
tools they need to provide adequate services to the public and conserve 
wildlife. The operations component includes staffing for scientific 
studies and comprehensive plans, projects for recovering endangered 
species and controlling invasive species, and efforts to monitor 
wildlife and restore habitat.
    The operations and maintenance backlog facing the Refuge System is 
nearly $2 billion and growing, though recent congressional attention 
has caused the rate of growth to slow considerably. Currently, 
maintenance needs exceed $830 million and operational needs total $1.13 
billion. As a result of recent congressional oversight, the Fish and 
Wildlife Service (FWS) has made an effort to prioritize these needs. In 
the highest priority tier of their two-tiered system, FWS has 
identified $344 million in operational needs. These needs are 
categorized as: 1) essential staffing, 2) mission-critical projects, 
and 3) new and significantly expanded refuges.
Critical Operational Needs
    To illustrate these high-priority needs, let us turn to the Fish 
and Wildlife Service's mission-critical projects to control invasive 
species harmful nonnative plants, animals and microorganisms. The Fish 
and Wildlife Service has identified $30 million in Tier 1 operational 
needs to address invasive species threats to wildlife habitat on 
refuges. These needs are increasing rapidly as the problem, and 
awareness of the problem, grows. In 1999, the Refuge Operating Needs 
System data base included funding needs of $44 million for invasive 
species management. By July of 2000, that number had increased by 
nearly 300 percent to $120 million.
    Invasive species are like a wildfire out of control. Each year in 
America, invasive species damage and destroy more than 3 million acres 
of natural habitat. The Fish and Wildlife Service estimates that 6 
million acres of refuge land are damaged and destroyed just by invasive 
plant species alone. As you know, Mr. Chairman, invasive animal species 
are just as destructive. On Blackwater National Wildlife Refuge (NWR) 
in Maryland, invasive nutria have destroyed 7,000 of the 17,000 acres 
of marsh, and the refuge continues to lose between 500 and 1,000 acres 
per year. On Upper Mississippi National Wildlife and Fish Refuge, 
invasive zebra mussels are killing native mollusks while invasive 
plants are wiping out wetlands needed by the refuge's waterfowl 
population.
    Invasive species affect hundreds of refuges across the country. 
This is a crisis of epidemic proportions, and we hope the subcommittee 
will turn its full attention to addressing it.
    A quick glance at the operational and maintenance needs of 
Blackwater Refuge illustrates the need to address the crisis and the 
backlog. Since 1989, Blackwater NWR has increased in acreage by more 
than 80 percent. Exotic and invasive species, human population growth, 
and other factors threaten the very existence of the refuge's wetlands 
and wildlands. Mandated to protect, conserve, and manage endangered 
species and migratory birds, Blackwater's intricate and intensive 
management and monitoring programs require a strong biological program. 
Biologists are needed to help develop a control strategy for the 
invasive nutria. Funding is needed for marsh restoration. Opportunities 
exist to improve wildlife observation and environmental education, 
implement MoistSoil management for shorebirds, and provide more food 
for migratory birds by improving water management capabilities. None of 
these improvements can occur if the operations and maintenance backlog 
is not addressed.
Need for Improved Science
    The impact of the operations and maintenance backlog is also seen 
in the Fish and Wildlife Service's need for improved science to support 
management decisions and comprehensive conservation planning. The Fish 
and Wildlife Service has been working to move toward an ecosystem 
approach, yet the Service lacks basic staffing and other resources to 
support efforts to implement ecosystem management.
    In order to properly manage refuges, refuge managers must first 
understand the ecosystems within which their refuges are situated. To 
understand these systems, managers must identify the structures, 
components, processes, and linkages among ecosystems; identify current 
ecological trends and conditions; identify minimum ecological 
conditions necessary to maintain or restore ecosystems; and identify 
effects of human activities on ecological conditions.
    Little of this information is available to most refuge managers. A 
survey of refuge managers in the early 1990's found that only 60 
percent of refuges have inventories of bird populations, and for other 
groups of species the numbers are less than 30 percent. Without 
knowledge of the condition, trends, and responses to management of 
biological systems, refuge managers will struggle to develop and 
implement management plans in a proper manner.
    By extension, without this baseline scientific information, the 
Fish and Wildlife Service will not be able to complete plans that meet 
the data needs outlined in their planning policy issued May 25, 2000 
pursuant to the National Wildlife Refuge System Improvement Act of 
1997. In this policy, managers are directed to identify and describe 
the structures, components, and functions of the ecosystem(s) of which 
the planning unit is a part. Although the policy allows that a lack of 
data should not delay the completion of the plan, a lack of data will 
compromise the quality of the plan and its likelihood that it will 
effectively serve its primary purpose of conserving refuge resources.
Need for Better Planning
    Since the passage of the Refuge Improvement Act in 1997, the Fish 
and Wildlife Service has completed 22 Comprehensive Conservation Plans. 
At current funding levels, the Service will not complete a plan for 
each refuge in time to meet its statutory deadline of 2012. The process 
is demanding of limited refuge staff. They must compile and analyze 
background information, plan and conduct public meetings, synthesize 
input from various government agencies and the public, and develop and 
analyze alternatives and draft plans. Lacking adequate funding and 
staff, refuges often do not have the resources to develop quality plans 
within acceptable timeframes. Further, they are often diverted from 
other critical duties.
    The Tier 1 operational priorities prepared by the Fish and Wildlife 
Service include mission-critical projects to improve science and 
develop comprehensive plans. Improved science would not only improve 
the quality of the plans but would improve nearly all conservation-
related aspects of refuge operations, from endangered species recovery 
to restoration of habitat.
Need for Essential Staffing
    To improve science and planning, the Refuge System will need the 
essential staffing necessary to manage its lands effectively. The Fish 
and Wildlife Service estimates that 1350 Full-Time Equivalents (FTEs) 
are needed immediately if the Refuge System can meet its basic 
responsibilities and its core mission. This includes 388 biologists, 
163 managers, and 114 resource specialists who will vastly improve the 
capacity of the Fish and Wildlife Service to produce high-quality 
conservation plans and otherwise conserve and protect refuges across 
the country.
    At Monomoy National Wildlife Refuge in Massachusetts, for example, 
minimal staff and resources have been assigned to manage a significant 
biological resource. Two staff members, a manager and a biologist, are 
responsible for the refuge's maintenance, law enforcement, research, 
monitoring, public outreach and educational programs. This refuge 
contains 2,750 acres of sand dunes, freshwater ponds, and marshes that 
provide one of the few secure nesting and staging areas for migratory 
shorebirds in the state. To adequately protect the resource, the Fish 
and Wildlife Service has concluded the refuge needs a core staff of six 
FTEs, including biologists, public outreach specialists, and law 
enforcement personnel. At current staff and funding levels, the refuge 
is forced to operate hand-to-mouth, buildings are dilapidated, and the 
resource is left at risk.
    For Monomoy NWR, Blackwater NWR, and hundreds of other refuges that 
face imminent threats and struggle every day to accomplish their basic 
mission, increased funding will help to address the problems these 
areas face. Funding can put more and better scientists doing more and 
better science out on refuges, it can improve the system's dilapidated 
infrastructure, and it can provide basic services to refuge visitors 
like maps, brochures and trails. It can improve every facet of refuge 
operations and significantly improve our nation's efforts to conserve 
birds and wildlife.
Money is Not the Only Problem
    The second major problem facing the Refuge System is equally 
challenging. If money were the only problem facing the system, it would 
be a simple matter to work with the appropriations committee to secure 
the funds. But money is not the only problem.
    The Refuge System is still largely invisible to the average 
American and lacks consistent and focused attention from its 
leadership. The Fish and Wildlife Service faces difficult 
organizational challenges, including both the need to move toward an 
ecosystem approach and the need to reconcile many disparate and 
competing priorities. As you know, Mr. Chairman, Audubon supports 
elevating the Refuge System to coequal status with its sister land 
systems such as the National Park System.
    The Department of the Interior, and especially the Secretary, needs 
to be an advocate for our Refuge System. The Department needs to 
resolve jurisdictional disputes over harmful public uses and to better 
manage ecological areas that transcend jurisdictional boundaries. The 
Army Corps of Engineers must also be investigated, to ensure that its 
processes do not lead to the destruction of valuable national assets in 
the Refuge System.
    In conclusion, Mr. Chairman, the operations and maintenance backlog 
facing the Refuge System presents a profound challenge to the Fish and 
Wildlife Service as they attempt to manage the Refuge System under the 
Improvement Act of 1997. Efforts to improve science, complete adequate 
plans, provide basic services to the public, and protect birds and 
wildlife and their habitat are jeopardized by a lack of essential 
staffing and funding for mission-critical projects. We hope you and the 
members of this subcommittee will work to ensure that these critical 
needs are addressed.
    But money is not the only problem. We hope this subcommittee will 
continue to attack the crisis in the Refuge System by investigating the 
issues of institutional neglect, jurisdictional conflicts with other 
government agencies, and the impacts of the Army Corps of Engineers on 
refuge resources.
    Mr. Chairman, this concludes my prepared statement. I will be 
pleased to answer any questions that you or Members of the Subcommittee 
may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Beard.
    Dr. Sparrowe, welcome, sir.

STATEMENT OF ROLLIN D. SPARROWE, PRESIDENT, WILDLIFE MANAGEMENT 
                           INSTITUTE

    Dr. Sparrowe. Thank you, Mr. Chairman. I am pleased to be 
here again to testify before this Committee on refuge affairs. 
We at the Wildlife Management Institute continue to work with 
the Cooperative Alliance for Refuge Enhancement on operational 
and maintenance needs of the system, but also have spent 
considerable staff time at our institute, interacting with the 
Fish and Wildlife Service on the whole spectrum of refuge 
issues, the planning process, the maintenance and operational 
needs, and the ongoing policy development process.
    As you will recall, the unifying interest of the now 19-
member CARE group is in securing adequate operation and 
maintenance funding for the Refuge System. The simple premise 
is that no one's needs are met, nor are the needs of wildlife 
and fish met, unless managers have the money and the staff to 
do the management necessary on refuges, to make them fulfill 
their purpose.
    With your help and others on the Committee, this very 
bipartisan movement on behalf of refuges has in fact elevated 
its stature and its visibility, in the Fish and Wildlife 
Service, the Department of the Interior, the Congress, and with 
the general public. A lot of this has been based on careful 
documentation of needs and careful documentation of what the 
Fish and Wildlife Service has done with the new money provided 
it. I won't go into the details because we have attached some 
material to our testimony to illustrate that. The Cooperative 
Alliance is in the process of updating a plan for the Refuge 
System, entitled Restoring America's Wildlife Legacy. And we 
will be sending that when it is completed. It will be a 
cooperative effort with many of the folks sitting at this 
table.
    It is important to recognize the backlog needs on refuges 
are more than just maintenance. Maintenance is generally more 
easily understood--buildings, roads, water facilities and 
things like that. But the primary need for operational support 
is one that we and other members of the Alliance have tried to 
foster, and we think it continues to need attention. Staff and 
money to carry out programs is a pressing need that you will 
hear from every refuge manager in the field.
    Some examples. Yesterday I was on the National Elk Refuge 
in Jackson Hole, Wyoming, and spoke with Barry Reiswig, the 
manager, about the fact that here is a refuge with all of the 
complexities, and probably some more, of modern refuges: 
900,000 visitors, problems with law enforcement and no staff to 
carry it out, having to divert management people from the 
refuge for collateral duty to deal with sometimes even 
dangerous interactions on drugs and all of the other things 
that our complex society now brings to the door of even a very 
wild refuge area; dealing with the major tasks of raising food 
for 500 bison and 6,000 elk and things like this without the 
staff to carry it out.
    And yet, what Barry told me in response to direct questions 
was the same thing I heard the week before from Al Trout at 
Bear River National Wildlife Refuge, and two weeks ago from a 
whole gathering of regional supervisors of the refuge program. 
Money is getting to the field. One of the things the refuge 
managers have said is that "we have been able to satisfy many 
of our maintenance needs." One of the best things about it is 
they now have some maintenance money every year to use to chip 
away--
    Mr. Gilchrest. Excuse me, Dr. Sparrowe, you are saying 
money is getting--
    Dr. Sparrowe. Is getting to the refuge managers in the 
field from the increases from recent years and all of this 
activity. It has not met all their needs.
    What I want to emphasize, the refuge managers are feeling 
the results of all the work and the attention that they have 
been getting both from the Service and all of the partners 
outside and the Congress in providing additional money. So what 
we have done so far together has been very beneficial to refuge 
managers. They see hope now for the future.
    But they went on to illustrate that they have needs to 
conduct monitoring of those resources to carry out public use 
programs and to deal with the increasing complexities of their 
refuge tasks. And I think documentation has been provided by 
the Service about the size of the need for staffing and their 
ability to carry out refuge management.
    I also want to point out that in our new assessment of 
restoring the Refuge System, probably operations will be three 
or four times as important in terms of dollar figures expressed 
for the future than will maintenance. Not that maintenance 
isn't a continuing important need, but we really feel a need to 
focus on the operational side of it. We have interacted with 
the planning process, both the comprehensive plans on each 
individual refuge with--not all of them, but maybe half so far 
through my field staff, and also with the major policies being 
written by the Service. And let us just add to that part of 
this discussion by saying that we had some concerns about a 
recent policy on ecological integrity. We waded in, provided 
extensive comment, as did others, met with the Service, and 
found them very responsive. We think the policy has come a long 
way, and we look forward to continuing to work with them.
    In closing, I see a good deal of hope for the Refuge 
System, and in fact the Centennial Act and the commission to be 
formed and the potential for this Committee and its members and 
all of the folks that we have worked with through this Alliance 
and others, to make a big step by the 100th anniversary of the 
Refuge System. This is something we are looking forward to and 
think should receive a lot of attention.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sparrowe follows:]

  Statement of Dr. Rollin D. Sparrowe, President, Wildlife Management 
                               Institute

    Mr. Chairman. The Wildlife Management Institute is pleased to be 
before this Committee again to discuss the National Wildlife Refuge 
System (NWRS). We, and others, are working to continue to elevate the 
NWRS in the public dialogue, especially with a new Administration in 
place. We have been before this Committee several times in recent 
years, concerning organic legislation for refuges, operation and 
maintenance needs, cooperative efforts by private organizations to 
enhance refuges and volunteer support for refuges. Most recently, we 
appeared to support the National Wildlife Refuge System Centennial Act 
that originated with this Subcommittee in the last Congress. We 
congratulate you on the successful passage of that legislation.
    We continue to work with the Cooperative Alliance for Refuges 
Enhancement (CARE) on operational and maintenance needs of the Refuge 
System, and we have spent considerable staff time interacting with the 
Fish and Wildlife Service on the full spectrum of refuge issues, 
including understanding the Maintenance Management System (MMS), the 
Refuge Operating Needs System (RONS), the Comprehensive Conservation 
Planning (CCP) process and the ongoing policy development process. We 
commend you and this Committee for the continuing attention to this 
important, bipartisan movement to improve the management of national 
wildlife refuges for fish, wildlife and the people of America.
    As you will recall, the unifying interest of the now 19 member CARE 
Group is in securing adequate operation and maintenance funding for the 
Refuge System. This simple premise is predicated on the fact that 
refuge managers cannot provide for the needs of wildlife or people 
without the staff and money to conduct necessary monitoring, active 
management of biological resources and habitats, or provide for public 
use programs as called for under the 1997 Refuge Improvement Act. This 
Act clearly states that refuges are primarily for wildlife and that 
other uses, including priority public uses such as hunting, fishing, 
wildlife, photography, environmental education and interpretation are 
dependent upon having healthy wildlife. Additional resources are 
clearly needed to take advantage of the opportunities to enhance 
wildlife populations and public uses of refuges.
    With the help of this and other committees in the Congress, the 
past Administration and supporters of the Refuge System, more of our 
national wildlife refuges are operating closer to their full potential. 
This has happened as the result of bipartisan support from Congress to 
provide funding through the regular appropriations process as well as 
supplemental funding though the Transportation Enhancement Act. This 
collective support rests on careful documentation of the needs and 
enhanced accountability for the use of new money by the Fish and 
Wildlife Service (. To satisfy the commitment of CARE members to strong 
fiscal accountability, as well as provide an additional perspective to 
the Service, CARE has conducted an analysis of the use of new funds. We 
have attached, as part of this testimony, the latest available report 
on the use of these funds by the Service to reduce the refuge 
maintenance and operations backlog. Another such analysis will be 
conducted within the next few months and will be sent to your Committee 
as a follow-up item. In addition, CARE is in the process of updating 
our plan for the Refuge System and entitled Restoring American's 
Wildlife Legacy and will send it to you as well. As aside, I would like 
to commend the Service for their full cooperation during these 
analyses. CARE has asked some tough questions, and the Service has 
responded in a very business like manner.
    It is important to recognize that the backlog of needs on national 
wildlife refuges includes more than maintenance. Maintenance is 
generally more easily understood because it consists of buildings, 
water control devices, roads, other physical facilities and structures 
of a refuge. The Service has been closely working with other agencies 
within the Department of the Interior to standardize terms and 
schedules for maintenance items. We have made significant progress in 
meeting these needs.
    However, we have made much less progress in securing funding for 
operational needs. Operational needs are, generally, less tangible and 
include a staff and money to conduct monitoring, biological 
investigations, public use surveys, educational programs and the myriad 
of things that go into maintaining and enhancing the fish and wildlife 
resources so that it can be made available to people in the most 
appropriate way. Many operating needs cannot be expressed in a single 
year or two of funding, but remain an ongoing costs as part of the 
business of running the refuge.
    Congress, and others, have requested that the Service review their 
operating needs in detail. The Service has responded and developed an 
Essential Staffing Vacancies report that clearly identifies the staff 
needs on a refuge-by-refuge basis. The Service has also re-evaluated 
its Refuge Operational Needs System (RONS) and its ranking priorities, 
so the highest priority projects are clearly identified. In developing 
these priorities, the Service has organized the operating needs of in 
the RONS data base into two-tiers.
    The top tier (Tier 1) contains the highest priority needs of the 
Refuge System, as called for by the Appropriations Committee, for 
essential staffing vacancies, critical mission projects and new and 
significantly expanded refuges. The essential staffing vacancies report 
listed 1350 vacancies that are crucial to baseline management of 
National Wildlife Refuges. The high priority critical mission projects 
are essential to the Refuge System to meet the first mandate of the 
Refuge Improvement Act. The projects include biological monitoring and 
surveys, habitat management, public use opportunities and other 
projects that allow the System to meet its mission to the American 
people.
    As an example, of the types of Tier 1'' needs, identified, the 
Blackwater National Wildlife Refuge in Maryland lists the following 
projects: (1) control of invading exotic species, (2) enhancement of 
the volunteer program, (3) development of the new visitor center 
exhibits, (4) restoration for and protect ion of Smith Island, (5) 
employment of a full-time, law enforcement officer, and (6) funding for 
several additional biological and public use projects on the refuge. We 
urge this Committee to understand the operating needs question so these 
needs may be communicated more clearly to future appropriators.
    The Comprehensive Conservation Planning (CCP) process for the 
National Wildlife Refuge System has drawn considerable interest during 
their development. Currently, 22 CCPs have been completed, and 72 are 
underway. However, approximately 200 remain to be started. Each of 
these plans is extremely labor intensive and we have concerns that the 
current level of funding will not allow their completion by 2012, as 
required by the Refuge Improvement Act. WMI staff has reviewed and 
commented on individual policies and have interacted with refuge 
managers on CCPs in virtually all areas of the country. Attached, is an 
example of the types of comments we have provided on an individual CCP. 
While we fully support this planning process, we have additional 
concerns about the Services financial ability to implement them once 
they are completed.
    In addition to the CCP process, there also has been the development 
and distribution for public comment on an array of operating policies 
for the national wildlife refuge system. These new policies, when 
finalized, are designed to implement the Refuge Improvement Act of 1997 
and aid refuge managers in providing consistent management of refuge 
programs. A recent policy circulated by the Service considered 
ecological integrity on the national wildlife refuge system. This 
policy attempted to define terms that were included in the Refuge 
Improvement Act, but have not previously been defined, and which the 
wildlife profession has had difficulty grappling with for many years. 
The response to this policy was widespread, partly because of the 
newness of the process, but mostly because the first draft seemed to be 
considerably off the mark. To its credit, the Service listened 
carefully to a wide array of comments and made significant changes 
before they finalized this policy.
    Additional policies are in the process of being developed, 
commented on and finalized. While we fully support the development of 
these policies we strongly believe they must be done carefully, with 
full public input. Where we have encountered problems with CCPs, it has 
been clear that some refuge managers might have benefited from firm 
internal policies rather than being left to make their own 
interpretations. We still see some individual and regional differences 
in the approach to certain issues concerning public use. To avoid 
inadvertently setting new standards for program conduct, these policies 
must clearly reflect: (1) the purposes of individual refuges, (2) the 
mission of the system, or (3) common sense in avoiding making problems 
where none exist. If the Service's responsiveness in revising the 
Ecological Integrity policy is any indication, we are confident that 
the Service is motivated by a desire to provide its refuge managers 
clear consistent guidance to fully implement the Refuge Improvement Act 
and is open to suggestions from the public.
    I want to thank this Committee for holding this hearing. To me it 
is further evidence that the needs of the National Wildlife Refuge 
System are indeed real, well documented, widely supported and beginning 
to get the attention that they rightfully deserve.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Sparrowe.
    Mr. Bohlen, welcome.

STATEMENT OF CURTIS BOHLEN, CHAIRMAN, NATIONAL WILDLIFE REFUGE 
                          ASSOCIATION

    Mr. Bohlen. Thank you, Mr. Chairman.
    Mr. Gilchrest. Did you drive across the bridge this 
morning?
    Mr. Bohlen. No, I didn't, that is where I am going 
tomorrow.
    Mr. Gilchrest. That is good.
    Mr. Bohlen. First, on behalf of the National Wildlife 
Refuge Association, I would like to thank all the members of 
this Subcommittee for their leadership in highlighting the 
importance of the National Wildlife Refuge System, for 
redefining its mission, and for helping to alleviate this 
historic shortage of funds for management of our refuges.
    As you well know, the Refuge System was grossly neglected 
for many years, and I hasten to add that the hardworking men 
and women who dedicate their lives to the management of these 
lands have not been a cause of this neglect. Rather, it has 
been a chronic shortage of financial resources that has left us 
with a system that is unable to achieve its full potential. We 
hope through the work of this Subcommittee that this deficiency 
can be corrected.
    The Fish and Wildlife Service, as you know, was the first 
agency in the Department of the Interior to systematically 
document and catalog the needs of its land. They painstakingly 
developed the Maintenance Management System, known as MMS, and 
the Refuge Operating Needs System, known as RONS. The MMS 
database has identified a backlog of maintenance needs that 
exceeds $830 million. While that is a large number, it is a 
manageable number. In fact, we are pleased to report, much as 
Dr. Sparrowe has, that with the help of Congress, significant 
inroads have been made in addressing basic maintenance projects 
within the system.
    However, the crisis that this system is facing is far from 
over. Let us set a goal to eliminate this maintenance backlog 
by the time of the centennial.
    Unfortunately, the picture for the operational needs of the 
system is not as rosy. The RONS database has identified needs 
in excess of $1.2 billion. This number represents the 
opportunities that a fully functional system could take 
advantage of. Both Congress and CARE have worked with the 
Service to further screen and prioritize these identified needs 
into what is now called Tier 1 of the RONS database. Even with 
this screening process, Tier 1 has identified high-priority 
projects that require an additional $355 million annually.
    The type of projects contained in Tier 1 are those that 
begin to implement the Refuge Improvement Act. These projects 
include inventorying and monitoring biological resources, 
enhancing priority wildlife-dependent public usage, controlling 
invasive exotic species, and preparing Comprehensive 
Conservation Plans. All of these projects require not only 
funding, but also an increase of staff to get them done. Unlike 
maintenance, operational projects are, for the most part, 
people. Downsizing the Federal Government and implementing the 
Refuge Improvement Act are clearly in conflict. At this point, 
further progress in reducing the maintenance backlog and 
conducting adequate operations requires more staff. The current 
staff is spread so thin, that adding responsibilities is not a 
viable option.
    At present, about 280 refuges, or 53 percent, do not have 
full-time staff, and less than 15 percent of refuge visitors 
have an opportunity to interact with the refuge staff. It is 
important to note that most of the staff that visitors contact 
are actually volunteers. Others have already stressed how 
important the volunteers are.
    We are very grateful to the Committee for the Refuge 
Improvement Act, and particularly for the part that focuses on 
Comprehensive Conservation Plans. I see my time is up. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Bohlen follows:]

 Statement of Curtis (Buff) Bohlen, Chairman, National Wildlife Refuge 
                              Association

    Mr. Chairman, The National Wildlife Refuge Association is grateful 
for this opportunity to discuss the financial needs of the National 
Wildlife Refuge System. We greatly appreciate the leadership shown by 
you and this Committee in addressing this important issue.
    Our Association is the only national membership organization 
dedicated solely to protecting and perpetuating the National Wildlife 
Refuge System. Our mission is to preserve and enhance the integrity of 
that System as the nation's most important network of diverse and 
strategically located habitats set aside for the benefit of fish, 
wildlife, and plants. To this end we are constantly seeking ways to 
strengthen the System, whether it be reviewing and commenting on refuge 
management policies, facilitating discussion among interested parties 
or helping to reduce the funding backlog for operations and 
maintenance. .
    Currently, there are 538 national wildlife refuges comprising more 
that 93 million acres. These lands are the only Federal lands 
dedicated, as their primary purpose, to the conservation of wildlife. 
They are located in every state of the nation.
    Unfortunately, the Refuge System was grossly neglected for many 
years. I hasten to add that the hardworking men and women who dedicate 
their lives to the management of these lands have not been a cause of 
this neglect. Rather, it has been a chronic shortage of financial 
resources that has left us with a system that is unable to achieve its 
full potential. We hope, through the work of this Committee that this 
deficiency will be corrected.
    The needs of the System are well documented, but, unfortunately, 
may not be well known. The US Fish and Wildlife Service ( was the first 
agency in the Department of the Interior (DOI) to systematically 
document and catalog the needs of its lands. They painstakingly 
developed the Maintenance Management System (MMS) and the Refuge 
Operating Needs System (RONS). These systems became the model for other 
DOI agencies to follow. DOI has now improved these systems and the 
Service is working with other agencies to harmonize definitions and the 
tracking process used to identify unmet needs.
    Since its initial development, the MMS data base has identified a 
backlog of maintenance needs that exceeds a cost of $830 million. While 
that is a large number, it is a manageable number. In fact, we are 
pleased to report that, with the help of Congress, significant inroads 
have been made in addressing basic maintenance projects within the 
System. However, while progress is being made, the crisis that the 
System is facing is far from over. Let us set a goal to eliminate this 
backlog by the time of the Centennial.
    Unfortunately, the picture for the operational needs of the System 
is not as rosy.
    I will discuss these in a moment. Suffice it to say, significant 
additional resources will be required.
    The National Wildlife Refuge Association is a member of the 
Cooperative Alliance for Refuge Enhancement (CARE). This group of 19 
organizations joined together for the common goal of obtaining 
additional resources for the Refuge System. CARE spent considerable 
time and energy examining the MMS and RONS data bases and developed a 
long term plan to address those needs. A copy of this plan, entitled, 
Restoring America's Wildlife Legacy, is attached. CARE's goal is to 
have a fully functional refuge system by the 100th Anniversary in 2003. 
It is important to note that our definition of a fully functional 
refuge system is modest in light of the documented needs. Even with 
this modest definition and without the added responsibility given to 
the System by the Refuge Improvement Act of 1997, we believe that the 
System needs an increase in its appropriation of at least $200 million 
annually to meet this goal. CARE is presently updating its plan to 
include the costs of fully implementing the extensive planning 
processes prescribed in the Act. The revised figures will be available 
soon.
    As I mentioned earlier, the Service also developed a data base of 
unmet operational needs. Currently, the RONS data base has identified 
needs in excess of $1.2 billion. This number represents the 
opportunities that a fully functional System could take advantage of. 
However, both Congress and CARE have worked with the Service to further 
screen and prioritize these identified needs into what is now called 
``Tier 1'' of the RONS data base. Even with this screening process, 
Tier 1 has identified high priority projects that require an additional 
$355 million annually.
    The types of projects contained in the Tier 1 list are those that 
begin to implement the Refuge Improvement Act. These projects include 
inventorying and monitoring biological resources, enhancing priority 
wildlife-dependent public uses, controlling invasive exotic species and 
preparing Comprehensive Conservation Plans. All of these projects 
require not only funding, but also an increase of staff to get them 
done. Unlike maintenance, operational projects are, for the most part, 
people. Downsizing the Federal Government and implementing the Refuge 
Improvement Act are clearly in conflict. At this point, further 
progress in reducing both the maintenance backlog and operations needs 
requires more staff. The current staff is spread so thin that adding 
responsibilities is not a viable option.
    At present approximately 280 refuges (53 percent) do not have any 
full time staff and less than 15 percent of refuge visitors have an 
opportunity to interact with refuge staff. It is important to note that 
most of the ``staff'' that visitors contact are actually volunteers. 
Without volunteer efforts the Refuge System would be in even more dire 
straits. Most refuges lack maps, signs and simple brochures that would 
enhance a visitor's experience and increase the public's understanding 
of the goals of the System. While the System does not want to be a 
National Park Service, it should strive to provide high-quality, 
wildlife-dependent, recreational and educational experiences that are 
supported by basic informational material. Unfortunately, the current 
budget does not allow such a ``luxury.'' We are grateful to this 
Committee for the Refuge Improvement Act, much needed legislation which 
clarified the mission of the system, identified six priority wildlife-
dependent activities and set forth an aggressive planning process to 
determine the future management of the various refuge units. 
Significant new resources are needed to implement this legislation. The 
Service's planning process is well underway and, I am happy to report, 
improving steadily. Currently, almost 100 Comprehensive Conservation 
Plans (CCP) have been initiated, of which twenty-two have been 
completed. According to reports we are receiving from our members, each 
successive plan is more complete and involves more public input. The 
improvements result partly from new policies issued by the Service on 
how to conduct these planning exercises and partly because refuge staff 
are learning how best to create these important documents. 
Unfortunately, over 200 additional plans are required. Given the 
current availability of resources, I seriously doubt whether the 
Service will be able to complete so many plans in the timeframe called 
for in the Act.
    We also hope that these plans do not become a cruel joke played on 
the public. The Service is developing these plans in good faith and 
actively seeking involvement from the neighbors, nearby communities, 
interested organizations, state wildlife agencies and Federal agencies. 
Essentially, the Service is asking a broad segment of the public to 
help it determine what role a particular refuge should play in 
conserving wildlife and providing wildlife-dependent recreation. The 
collective vision of this process is then synthesized into the CCP. We 
strongly support this process. However, if the government asks people 
for their vision, we must be prepared to commit the resources needed to 
have that vision come to fruition. I hope this will be the case.
    Finally, I want to congratulate this Committee on the successful 
passage of the Refuge Centennial Act at the end of the last session. 
This act calls for two important items. First, it created a Centennial 
Commission to help guide the Service in planning the celebration 
activities for this momentous event. Second, it calls for the Service 
to develop a ``legacy plan'' to insure that the Refuge System meets its 
obligations under the Refuge Improvement Act and other laws. As 
mentioned earlier, the Improvement Act has the potential to become the 
blueprint for our collective vision of what the System should be. We 
urge you to follow the development of both the plan and the activities 
of the soon-to-be-created Commission to ensure that the will of 
Congress is followed. We also hope that you will continue to provide 
the leadership needed to resolve this crisis.
    Mr. Chairman, the National Wildlife Refuge Association stands ready 
to assist you in whatever way we can. Thank you for this opportunity to 
testify on behalf of the National Wildlife Refuge System.
                                 ______
                                 
    Mr. Bohlen. I couldn't read this monitor here.
    Mr. Gilchrest. That is all right, Mr. Bohlen. We always let 
you go a little beyond that light if you so choose.
    Mr. Bohlen. I think I will just leave it at that, thank 
you.
    Mr. Gilchrest. All right. Thank you very much.
    Mr. Ashe, would you say that we have a problem with a 
maintenance backlog, we have a problem with staffing at 
numerous facilities? We heard that there is even problems with 
modern day society as far as unruly people on the refuges and 
drugs on the refuges and so on and so forth.
    And what we are trying to do here is to--and it would 
really be nice if our maintenance backlog was eliminated by 
2003. We will do what we can with the Appropriations Committee 
on that score. I guess we are trying to focus on two 
fundamental things: how do we substantially reduce the backlog 
in an efficient, competent, effective way; and balance that 
with the limited dollars to make sure that we have an 
appropriate conservation plan--and I know that word 
``appropriate'' is a relative term depending on who is saying 
it--but have significant progress in the next few years with 
these Comprehensive Conservation Plans. Would you say at all, 
Mr. Ashe, that developing conservation plans, the dollars that 
takes to do that, the dollars that it takes to purchase new 
refuges, and then in some cases minimal management of those 
refuges, does that in any way take away or exacerbate the 
problem with the cost of the backlog in maintenance?
    Mr. Ashe. Mr. Chairman, you are asking me if the 
development of CCPs and the acquisition of new lands is taking 
us away from the task of dealing with the maintenance backlogs; 
is that your question?
    Mr. Gilchrest. Yes.
    Mr. Ashe. I guess I will deal with them just separately if 
I can. I don't think that CCPs are. I think that the--I think 
in the end, a Comprehensive Conservation Plan, if it is done 
successfully, is going to sharpen our view of what our job is 
on the refuge and build community consensus and support for 
doing that work, and so I think that done well, the 
Comprehensive Conservation Planning process will help us in 
meeting that goal of dealing with our maintenance needs and our 
operational needs in the most effective way possible.
    I think that land acquisition, clearly the acquisition of 
new lands--when we acquire new lands, they bring along with 
them maintenance needs. If we buy a new piece of land adjacent 
to the Blackwater National Wildlife Refuge, then we have to go 
out there and post boundary signs, so in the immediate sense, 
you know, it takes people to go out and post the property. We 
may discover things that we didn't know about the property. 
There may be debris or structures on the property that need to 
be removed. They may include water control structures or roads 
or trails that need to be maintained.
    Mr. Gilchrest. Would you suggest the agency slow down the 
acquisition of new refuges because of the present backlog?
    Mr. Ashe. I think that like, as with many things, there is 
a balance between the acquisition of new land and taking care 
of what we have. I think that has always been a difficult 
balance for the Service and the Department and the Congress to 
make. We have habitat conservation needs out there that require 
the addition of new land and new property to the Refuge System. 
Clearly, when we do that, it increases our maintenance and our 
operational obligation, so--
    Mr. Gilchrest. Is there sort of an active sense in the 
Service that--and I think in my own experience there is--an 
active sense in the Service to be very proactive in community 
involvement, as far as some of the more routine maintenance 
refuges are concerned, to have the district supervisor or the 
local supervisor or even a local refuge manager, involved in 
the local Rotary Club, Chamber of Commerce? It is hard to get 
people to volunteer, but--I mean, it's not in their job 
description to be a Boy Scout leader or a Cub Scout leader, or 
go to local community activities to get people on a refuge to 
pick up trash or to do things like that, but is that an active 
sense in the Service, that is a positive thing?
    Mr. Ashe. Absolutely. And most of our refuge managers--
while you are right, it is not in their job description--but 
most of our refuge managers are involved in Lions Club, Rotary 
Club, local Chamber of Commerce, all of the above, and so they 
are very tied into the local communities. We encourage them to 
be involved in those kind of organizations at the local level. 
It does help build community support and volunteer base within 
the Refuge System, and volunteers are an increasingly important 
part of our work force, but they also require supervision. And 
so in order to effectively use volunteers, we need people on 
the refuge to supervise them and make sure that when they come 
out they feel like they are being gainfully employed, and their 
talents are being used appropriately on the refuge. So that is 
something that we need to expand in the future as well, is our 
ability to use volunteers in the best way we possibly can.
    Mr. Gilchrest. Would anybody else on the panel like to 
address the priority needs of our refuges? Should the sole 
focus be, for the next few years, on the maintenance backlog? 
Can you balance that with the purchase of new refuges, or 
should there be a moratorium on the purchase of new refuges 
until this maintenance backlog gets completed or the 
conservation plans are complete? Is there any troubling aspect 
to any of those areas by anybody on the--any of the witnesses?
    Mr. Horn. Mr. Chairman, I think that if you look at the 
Fish and Wildlife Service budget as it relates to the refuge, 
you are looking really at fundamentally four categories: land 
acquisition, a construction account, an operations account, and 
a maintenance account. And, obviously, when Congress is 
appropriating the funds and the agency leadership is putting 
together the budget, as Mr. Ashe indicated, there is a balance 
among them.
    I would suspect that given the maintenance backlog and 
given the concerns on operations, my advice would be to focus 
heavily on those two areas and watch very carefully the land 
acquisition expenditures and watch very carefully the 
construction expenditures for new facilities and new items, 
which, of course, immediately and automatically contribute 
additional requirements to the maintenance side of the ledger. 
And it is a tough, balance. There are some places you need a 
visitor center, but I think that a little bit of discipline by 
the agency, and maybe some discipline here, would probably help 
contribute some of the dollars toward the less than sexy O&M 
account, which is real easy to get shortchanged.
    Mr. Gilchrest. You are suggesting discipline here in the 
House?
    Mr. Horn. Just, I think, discipline within the agencies, 
and I know in my past tenure, it is real easy to--I think the 
agency traditionally asks for a fairly modest amount in its 
construction account, and every year the construction account 
gets increased two or three times because people like to see 
visitor centers and they like to see high-profile projects. 
Unfortunately, maintenance isn't high profile and isn't very 
sexy, isn't very attractive, and that is a difficult part of 
the mix.
    Mr. Gilchrest. Thank you, Mr. Horn. I am going to--we are 
going to come around for a second round. Some of the members 
have to leave for other meetings, and my time is up. So I will 
yield now to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman, and thank you very 
much for all your testimonies. It is good to see you again, Dr. 
Beard.
    Basically I am trying to understand the interaction between 
the capacity of Fish and Wildlife to acquire property, and as 
an executive agency can acquire property through executive 
action, which marks it a little bit different than the National 
Park Service. Your own operations and your own maintenance 
backlogs, and also what was referred to by Dan as institutional 
neglect. And so the basic question I would just like to ask--
and maybe you could respond to this, Mr. Ashe--is in trying to 
understand--let's say under the best-case scenario, we were 
able to get a lot of funding for maintenance backlogs. 
Institutionally, the way Fish and Wildlife is placed within the 
Department of Interior and the kind of suggestion that was 
proposed by Dan, as well as the ongoing authority of Fish and 
Wildlife to acquire more property through executive action, 
how--it is a question of balance, I understand. But let's say 
we were able to get significant funding for maintenance 
backlog, would this basically resolve the issue, or is there 
some merit, or how would you react to Dan's suggestion?
    Mr. Ashe. I guess I will start with the issue of how to 
manage the maintenance backlog. And certainly if Congress or 
the administration wanted to support an objective of 
eliminating the maintenance backlog by 2003, which I have heard 
here today, I mean that certainly would be a good thing for the 
National Wildlife Refuge System. Our approach, however, has 
been to try to get ourselves in a position where we are 
managing our deferred maintenance needs. And we have seen that 
with increased appropriations over the last several years, that 
we have been able to significantly lessen the growth, the 
annual rate of growth in our maintenance backlog. And so the 
Refuge System is like everything else. At my house I maintain a 
deferred maintenance backlog. There are things in my home that 
need repair, but I live with them because I don't have the time 
or the dollars or the inclination to repair them, so I live 
with them. And they, from time to time, may be inconveniences, 
but they don't stop my home from providing its basic function.
    Mr. Underwood. You don't keep expanding your home either.
    Mr. Ashe. Well, actually, I just bought a new home.
    [Laughter.]
    Mr. Ashe. We believe that we can manage our backlog in much 
the same way if we can get to a level of funding where we will 
be able to--not to get the slope on a decline, so we are 
eliminating our backlog, it is no longer increasing, but we are 
actually decreasing our backlog over time. And that would be a 
good place for us to be, so that we can manage that backlog 
over time.
    Mr. Underwood. What about the structure, the institutional 
structure of Fish and Wildlife in Department of Interior; could 
you just respond to that briefly?
    Mr. Ashe. I think that changing institutional structure 
requires the expenditure of a great amount of energy, and 
what--and it also divides people. Discussion about changing 
bureaucracy and moving people around is a divisive factor and a 
divisive suggestion. We all, sitting around this table, agree. 
We agree that the Refuge System can do more for the 
conservation of wildlife in America. We agree that requires 
some additional resources, maintenance and operations, and so 
that is a uniting force for us, I think. We need to work 
together toward that as a solution, rather than focusing on 
changing organizational structure because many people will 
disagree about that and it will cause this group at this table 
to work against one another rather than with one another.
    Mr. Underwood. Okay. Could I just ask one more question, 
Mr. Chairman? On the Comprehensive Conservation Plans, which 
apparently are--I understand, as you have explained them, that 
it is taking a great deal of energy, especially the initial 
ones, you are going to have to figure out how to do these best. 
One of the criticisms--I guess I would label it a criticism--
offered by Mr. Horn, is the treatment of state agencies in the 
formulation of these conservation plans, and treating state 
agencies as if they were just one of several constituent groups 
rather than as partners. You probably, obviously, realize that 
I have a little heartburn with one of your refuges. And to some 
extent I share some of those criticisms. So how would you 
respond to the statements by Mr. Horn?
    Mr. Ashe. I think in some respects the criticism is 
deserved on our part. I think that, again, Comprehensive 
Conservation Planning is something new to the Fish and Wildlife 
Service. We had done planning before in Alaska under the 
Alaskan National Interest Lands Conservation Act. But outside 
of Alaska, it is a relatively new experience for us, and so 
over the last three years we have been learning how to do 
planning. But right now with the new policy framework that we 
had in place for the last year, we invite state and territorial 
governments and tribal governments to be involved in the 
planning team from the outset, so at the initiation of 
planning, our policy requires our regional director to write to 
the state or territorial or tribal government, and invite them 
to be a member of the planning team, so they are actually on 
the planning team. And we believe that is going to improve our 
ability to work with the states.
    And as I said in my testimony, with a number of states, we 
are working very closely and successfully on Comprehensive 
Conservation Plans.
    Mr. Underwood. Well, I will certainly keep a close eye on 
that. Thank you, Mr. Ashe.
    Dr. Beard. Could I provide another perspective on that?
    Mr. Gilchrest. If I could just--yes, sir. And we are going 
to come back, and I don't know if Mr. Jones can come back, but 
I want to yield to Mr. Jones at this time because we do have a 
vote.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, Mr. Ashe, I am certain that you are familiar with the 
Lodge at Lake Mattamuskeet, and to the panel, to the Committee 
members, this is a focal point in the area called Hyde County, 
and it is a county of about 3,000 people, and this lodge is 
almost like a church to them. It is very special. And I guess 
because of time--I really want to ask you if you could provide 
me--the lodge was closed to the public from 1974 to 1993, 
almost 20 years. And it is my understanding from the citizens 
from that area who love this lodge, that they came up with 
about--the private sector--about $800,000, which was a big help 
to Fish and Wildlife to reopen the lodge.
    If you could provide the Committee, with the Chairman's 
permission, how much money the Fish and Wildlife spent on the 
upkeep of that lodge or the renovation of that lodge between 
1974 and 1993.
    Mr. Ashe. All right. I will provide that for the record.
    Mr. Jones. In addition, Mr. Chairman, I have got two other 
questions, and I would then like to make just a couple of 
statements.
    The second question: how much money is the Fish and 
Wildlife Service dedicating to the stabilization of this 
structure during Fiscal Year 2001?
    Mr. Chairman and the ranking member, they are having a 
structural problem with the metal within the building. My 
understanding is that is going to be about $3 million.
    And how much money is the Fish and Wildlife Service 
requesting for Fiscal Year 2002 for the stabilization of the 
lodge?
    Mr. Ashe. I will work backwards. With respect to 2002, I 
can't comment on that, because it is part of the President's 
budget, and it will be out, released on April 9th. With respect 
to currently in Fiscal Year 2001, we have $400,000 that we are 
holding to make structural repairs--
    Mr. Jones. 400,000?
    Mr. Ashe. 400,000, to repair the columns in the lodge, but 
that is not enough funding to make the necessary repairs, so we 
haven't done any work at this point, but we have the funding 
available.
    I see on my note here that from 1974 to present, we had 
spent roughly $400,000 on maintenance of the Mattamuskeet 
Lodge, but I will check that for the record to make sure that 
is--
    Mr. Jones. With other facilities that you have the 
responsibility in maintaining, would you say that amount of 
money in roughly a 20-year period of time is about average, or 
would you say that is woefully under average for maintaining 
property, the figure you just shared with the Committee?
    Mr. Ashe. I guess I couldn't give you an average, 
Congressman. It kind of depends on what the facility, and for a 
structure like the Mattamuskeet Lodge, $400,000 over a 25-year 
period is probably about average or maybe less than average I 
would imagine.
    Mr. Jones. Well, I know. I have listened to my colleagues 
on the Committee and some of the responses from the panel, 
which I found very interesting, wish I could come back. I have 
been in Congress six years. This is the beginning of my seventh 
year. And, again, I have the greatest respect for Fish and 
Wildlife, but it seems like--whether the administration is 
Democrat or Republican, it seems like when it comes to 
maintaining what we own, we don't do a very good job. And, 
again, that is not a criticism toward you or Fish and Wildlife. 
I think it is just generally that for those of us who happens 
to be conservers, it seems like that the government just wants 
to continue to grow and expand, and yet, when we grow and 
expand and we want more properties, we just don't seem to have 
the money to take care of what we are trying to garner, so to 
speak, as far as our assets.
    So, Mr. Chairman, I will look forward to working with you 
and the ranking member. I think this problem is indicative 
throughout. We see the same thing with Park Service. It just 
seems like they continue to expand, and yet we have a 
responsibility, I think, to maintain what we own as the Federal 
Government. We are just not doing a very good job, and again, I 
look forward to working with the Chairman, the ranking member 
and the Appropriations Committee, because I think this is a 
cancer that is just getting worse and worse. And I think 
sometimes the cancer gets so bad, you just can't control it, 
and you have a facility that you can't save any longer.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Jones.
    We will take a 20-minute break.
    [Recess]
    Mr. Gilchrest. The Subcommittee will come back to order. We 
appreciate your patience. We will try not to keep people here 
any longer than is necessary.
    I have a few more questions, and Mr. Underwood has a few 
more questions. I would like to start with, I guess a question 
that would be--I would like each of you to respond if you would 
want to, and that is dealing with something that Dr. Beard and 
I think Dr. Sparrowe may have said also. Do you think that the 
Refuge System should be a separate entity, a separate agency? 
Would that be positive or negative, and why? Dr. Beard, would 
you want to go first on that?
    Dr. Beard. Well, I think the answer from our perspective is 
yes. We think this is the only way that we can think of to make 
the Refuge System all that it can be and reach its greatest 
potential. Right now the Refuge System comprises approximately 
half of the staff and half of the budget of the Fish and 
Wildlife Service. But it is one of 17 direct reports to the 
Director. As a result it always competes against other high-
priority uses for the attention of budget dollars, for the time 
of the Director and for the other leadership in the department.
    We spent a couple of years trying to gain support for our 
proposal. We are still at it. We have got a long way to go. But 
we are not giving up--we support it. We think this is the right 
way to go. But we are open to any other ideas for making the 
Refuge System a better system, and to address the problems that 
face the National Wildlife Refuge System itself.
    Mr. Gilchrest. Thank you. Dr. Sparrowe?
    Dr. Sparrowe. I do not support such a proposal for two 
categories of reasons. One is its impact potentially on the 
Fish and Wildlife Service, the second is the Refuge System 
itself and the progress we have been making.
    I believe that most of the organizations I have been 
working with for the past six years, now going on seven, are 
committed to making the current process work. We have learned a 
lot, we think the Congress has learned a lot, we think the Fish 
and Wildlife Service has learned a lot.
    One of the things you may not know is that in the course of 
working through the CARE group, we have systematically met with 
regional directors of the Fish and Wildlife Service, with the 
Director of the Agency, with other people in Interior, and with 
the managers at the regional level, the people who work with 
the folks out in the field. And we think we are making progress 
in carrying the message that this is a system that needs to be 
given a priority, if we are going to be able to help you 
working for you from the outside.
    Secondly, you look at the Fish and Wildlife Service, its 
basic authority is for migratory birds, and endangered species, 
and some other things that fit very well with the Refuge 
System, and we think a separation would be an artificial 
separation that wouldn't be good. We have a model in the rather 
arbitrary removal of research from Interior agencies. The Fish 
and Wildlife Service lost a thousand of its most highly trained 
people and $80 million eight years ago. From my perspective, 
having studied it and worked with it all the way through, both 
opposing it and in trying to keep money coming into the 
research function, given the lot that we were presented with--
    Mr. Gilchrest. But they were removed for the biological 
survey?
    Dr. Sparrowe. To make the biological survey. What I am 
talking about is the fallout within the Agency, the Fish and 
Wildlife Service was affected profoundly in its culture, its 
science--
    Mr. Gilchrest. Most of the people from Fish and Wildlife 
went to USGS to conduct that survey?
    Dr. Sparrowe. Most of the survey was composed of people who 
came from the Fish and Wildlife Service. By far, the biggest 
chunk of staff and money--
    Mr. Gilchrest. And many of them came from the Refuge 
System?
    Dr. Sparrowe. No, sir. What I am suggesting is that the 
impact on the Agency of the removal of such a large component 
of its staff, and money, and authorities would have a profound 
impact on the future of the Agency and the way in which it 
would carry out its authorities in a lot of important areas.
    Mr. Gilchrest. Mr. Ashe, what is the status or do you have 
any idea, when the biological survey debate came on board here, 
and then it, through some compromise, it shifted from U.S. Fish 
and Wildlife to USGS, as I remember, many people from Fish and 
Wildlife conducted part of the survey for USGS. They were 
transferred to USGS. How did all of that work, and are they 
still there?
    Mr. Ashe. Many of them are still there. We did, as Dr. 
Sparrowe said, have a separate research function within the 
Fish and Wildlife Service that included cooperative research 
units based at State land grand universities, and so we had a 
programmatic organization within the Service that supported our 
research needs.
    When the original biological survey was created, all of 
those people and facilities were picked up in a block and moved 
to the new national biological survey, a separate agency. 
Subsequently, that agency then was placed into a division 
within the United States Geological Survey, where they reside 
today, the Biological Resources Division. Those facilities and 
those people, many of them, are still there.
    Mr. Gilchrest. Is the survey ongoing?
    Mr. Ashe. It is not a survey. It is basically a research 
capacity. These are people that do research on fish and 
wildlife to support Fish and Wildlife conservation needs. And 
so we do work with them, as do the other agencies, the Park 
Service--
    Mr. Gilchrest. Do you see them as detracting from Fish and 
Wildlife's effort to develop conservation plans for each 
refuge?
    Mr. Ashe. I don't see them detracting. In fact, they can 
serve as a great asset. In some of our regions and refuges, we 
have great relationship with the Biological Resources Division 
and are getting good support from them in building our 
comprehensive plans. In other areas, we are not, and that is 
something that we are beginning to address with the Geological 
Survey, is trying to get more consistent support to do the 
biological work and the monitoring work that is needed to 
support a good comprehensive planning process.
    Mr. Gilchrest. At the time, I felt that a biological survey 
was a rather logical thing to do for this country. My 
assessment on that has not changed. I hope, though, that we can 
make an effort to shore up those biologists for Fish and 
Wildlife to do two things: One, specific biological research 
and ecological understanding for each refuge, certainly, in 
compatibility with the overall intent of the biological survey, 
in general.
    Mr. Horn?
    Mr. Horn. Mr. Chairman, thank you.
    WLFA strongly opposes separating out the Refuge System from 
under the auspices of the Fish and Wildlife Service for two 
fundamental purposes: One, echoing what Dr. Sparrowe said, many 
refuges are created for migratory bird conservation purposes, 
many for Endangered Species Act purposes, and to fracture the 
relationship or the responsibility for those programs from 
their land component I don't think makes any sense, from a 
conservation perspective.
    And secondly, having served as an assistant secretary, 
looking over both the Park Service and the Fish and Wildlife 
Service, having the National Park Service as a separate stand-
alone agency to administer the national park system has done 
nothing to facilitate their dealing with O&M and backlog 
problems. Indeed, I suspect, if you attend the Park 
Subcommittee hearings, their backlog problems are just as bad, 
if not worse. About every 5 to 10 years, the Secretary comes 
along and says, ``Gee, we have to announce this new program, 
and shovel billions of dollars into the Park Service to catch 
up with their O&M backlog,'' so that having separate status for 
the Park Service, with its park system, hasn't solved its 
problems, and I doubt that having separate status for the 
Refuge System will solve any of its problems either.
    Mr. Gilchrest. I see. I have some other questions, but I am 
going to yield now to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman.
    Mr. Ashe, you know, in terms of the GAO study, as you know, 
last year there was a GAO study completed, an audit of deferred 
maintenance in the Fish and Wildlife Service, and the GAO was 
pretty critical on how the Service set priorities for deferred 
maintenance. What have you done as a result of that GAO study?
    Mr. Ashe. Mr. Underwood, they were critical of a number of 
aspects of our maintenance program, mostly dealing with how we 
estimate costs for projects, and asked us to do a better job of 
doing condition assessments on our projects. We have been 
addressing that. We have reserved money in our maintenance. We 
requested funds from Congress last year as part of our 
maintenance budget to hire facility condition coordinators in 
the regional offices. Congress granted that request, so we have 
hired people in the regions to coordinate our work to do and to 
maintain the information about the condition of our facilities 
and to help us do better estimates, engineering estimates, 
about the costs of addressing those needs.
    They asked us to put together a maintenance handbook as a 
guide to our people on how to identify and estimate the costs 
of dealing with maintenance projects and keep track of 
maintenance projects, and we are working on that. We are behind 
schedule in addressing that aspect of the GAO report, but we 
are responding to it.
    Mr. Underwood. Okay. I know that you mean this chart to be 
a good news chart over there. So can you explain to me how that 
is a good news chart because I am trying to understand it. If 
you have maintenance backlog growth, it is not actually 
reducing your maintenance backlog. Am I correct in assuming 
that?
    Mr. Ashe. That is right. Our maintenance backlog is 
increasing.
    Mr. Underwood. Okay.
    Mr. Ashe. But what we have seen since 1997 is the rate of 
growth has decreased. And if we overlaid congressional 
appropriations on that chart, you would see that congressional 
appropriations have gone up, in terms of annual appropriations 
to deal with our maintenance backlog. And what that chart tells 
me is that it is having the right effect. By applying dollars 
and resources to a problem, we are de-escalating the rate of 
growth, the rate at which our backlog is growing.
    So, at some point in the future, if we continue to make 
investment, we will be able to stop the growth in the backlog 
and then begin to buy down the backlog so it is actually 
reduced over time.
    Mr. Underwood. Okay.
    Dr. Beard. I wonder if I could comment on that because I 
have the same reaction, which is, if we are at a 7-percent 
growth rate, that means that the backlog is going to double in 
10 years. That is generally what a 7-percent growth rate is. 
Now, obviously, the yearly rate of increase is going down, and 
that is good news, but we have got a long ways to go.
    Mr. Underwood. Yes. I found it a very curious chart 
because, obviously, normally you would think that the 
maintenance backlog was being reduced. That would be the 
measure of success. But if the growth of the backlog is only 
being reduced, your maintenance backlog actually is continuing 
to grow over time.
    Dr. Sparrowe. If I could make a point, in the progress of 
working with the Fish and Wildlife Service, and particularly 
refuge managers, we have been before this Committee before, the 
CARE group has, pointing out that the advent of a planning 
process now, and getting some new money to refuge managers, has 
literally provided hope to people who were used to doing 
without in the past. And that is another reason that some of 
these backlogs are coming forward. People believe there may be 
a chance they will get money to fix some things, and so they 
won't just go along with the bailing wire.
    If you look at the budget in the Southeastern United States 
for refuges, I think those people have something like 4 percent 
to work with in flexible money over their operational costs, 
and this is the kind of thing you are looking at refuges now. 
The managers have hope. They are doing these plans, and it is 
going to result in requests for more money.
    Mr. Underwood. Very good. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Bohlen, several years ago, in response to a peer study, 
85 percent of refuge managers expressed serious concern about 
the future of the Refuge System. Do you have some sense as to 
how they feel today, how you feel today, and your 
considerations for the Audubon's proposal that the Refuge 
System to be a separate agency?
    Mr. Bohlen. Yes, I would be happy to comment on that.
    Let me say that many of our members still feel a degree of 
discontent, and strongly support the Audubon proposal. Our 
board has not supported it, but we fully recognize and are 
sympathetic to the reasons that created this new campaign. I 
would like to commend Audubon for raising this issue because in 
the last year, it has forced us, forced everyone, including the 
Service, to really address the problems of why there is such 
discontent among the refuge managers and why they continually 
feel they are treated as second-class citizens.
    I commend Mr. Ashe and his former director for addressing 
this issue last year. They took a few small steps to correct 
the problem, but, frankly, I think there needs to be further 
steps taken to increase the stature of the Refuge System within 
the Service. If this need isn't satisfied, if there aren't 
further steps, I think that you are going to see increasing 
calls for a separate agency.
    I, personally, having served in Interior, don't believe 
that is a wise decision. I don't believe it is the best for the 
Refuge System, I don't believe it is the best for the Service, 
for the reasons that Dr. Sparrowe and Mr. Horn have already put 
forth. But I do think there is a problem that needs addressing.
    Mr. Gilchrest. The 85 percent of the refuge managers that 
expressed concern about the future of the Refuge System, what 
was their concern? Was it that Congress didn't appropriate 
enough money? Congress didn't have enough understanding of the 
difference between a refuge system and the park system? The 
public didn't pay that much attention to it? Was it an 
institutional thing, where the Fish and Wildlife regional 
directors didn't have enough sensitivity to the issues of the 
local refuge and didn't deal with it in an attitudinal way? Do 
you know specifically what--
    Mr. Bohlen. There are as you suggest, many, reasons. But I 
think you have to look back in history when refuges were the 
major component of the Fish and Wildlife Service. In the last 
20 years, the Service has acquired more and more authority for 
other programs, such as Endangered Species, and the perception 
has grown that the Refuge System has suffered as a result. It 
gets less attention. It gets less money. There is a 
perception--and I am not sure it is factual--but there is 
certainly a perception that money appropriated for the Refuge 
System gets siphoned off for other programs within the Service, 
and all of this has led to a feeling, as I said, of the refuge 
managers being second-class citizens.
    A lot of this is probably not accurate, but the perception 
is there, and that is certainly what Audubon is trying to 
address by forcing a discussion of this issue.
    Mr. Gilchrest. To refocus, certainly there has been a lot 
of attention, especially in the last 10 years, on species loss, 
habitat loss outside of the public lands, and that has drawn 
certainly attention away from the Fish and Wildlife Service 
that have been involved in those worthy, but certainly 
controversial activities and issues. Is there something, not to 
take away the need to understand that biological diversity is 
the strength and health of the ecosystem which supports human 
beings, but I guess I think we can probably see the reason that 
the Audubon Society would like to see the Refuge System as a 
separate entity so that, in and of itself, the highest priority 
of the Refuge System is the Refuge System. So the emphasis and 
the focus is geared toward the Refuge System.
    And, Mr. Bohlen, you made an interesting comment that the 
Fish and Wildlife Service used to almost exclusively focus on 
the Refuge System, which was the backbone of Fish and Wildlife 
Service. So I guess what we need to do is try to find some 
leadership, some mechanism to focus that attention equally and 
powerfully on the Refuge System.
    Mr. Bohlen. I think you are absolutely correct, Mr. 
Chairman.
    Mr. Gilchrest. I want to read the next question and then 
get some various responses.
    In the policy adopted in May 2000, the Service states that 
the implementation of the Comprehensive Conservation Plan 
should maintain and, where appropriate, restore the ecological 
integrity of each refuge and the Refuge System. By statute, 
Comprehensive Conservation Plans must identify and describe the 
following three things: the distribution, migration patterns, 
and abundance of fish, wildlife, and plant populations, and 
related habitats within the refuge; significant problems that 
may adversely affect the populations of habitats of fish, 
wildlife, and plants within the refuge; and the actions 
necessary to correct or mitigate some problems.
    In preparing or revising CCPs, the Service must consult 
with adjoining Federal, State, and local, and private 
landowners, and affected State conservation agencies, and 
coordinate the development of the conservation plan or revision 
within relevant State conservation plans for fish, and 
wildlife, and their habitats.
    How does the Service integrate these instructions to 
promote meaningful habitat management throughout important 
ecosystems?
    A second question, an essay question on your final exam.
    [Laughter.]
    Mr. Gilchrest. I don't know if that is an undergraduate or 
a master's thesis.
    Mr. Ashe. I think that is a Ph.D.
    [Laughter.]
    Mr. Ashe. I guess, Mr. Chairman, in many respects, your 
question hits at the crux of the challenge of developing a 
comprehensive conservation plan. And as I said in my testimony, 
our progress has not been such that I believe, at this point, 
that we will be able to meet the goal of completing all of our 
Comprehensive Conservation Plans by the statutory deadline of 
2012.
    The start-up period has been slow. I think we are getting 
into a little bit of a stride now, with respect to 
comprehensive plans, but it is a messy business. It involves a 
lot of consultation with the public. They are taking a lot 
longer than we thought they would. People are very interested 
in these plans, and that is good. That is a good thing.
    But your question, you know, identifying the distribution 
of habitats, significant disturbances, how to mitigate those 
impacts, those are all difficult things. They take a 
significant expenditure of resources in order to do them well: 
biologists, recreation planners, engineers. It takes a 
significant expertise. It takes information in and of itself, 
and a lot of times when we are doing these CCPs, the first 
thing we have to do is take a big, giant step backward and say 
we really don't know enough about the refuge to do a 
comprehensive plan. So, before we even get started, we need to 
go out and gather information that we need to do--
    Mr. Gilchrest. How do you gather the information? Let's 
say, wherever the refuge might be, whether it is Wyoming or 
Maryland or Alaska or California or Hawaii, how do you gather 
the information? I would assume that some of the information, 
to develop a conservation plan, would have to be, to some 
degree, historic information about that particular ecological 
system over a period of time. Do you get that from local 
universities, a local courthouse, the Audubon Society? Where 
does that data come from?
    Mr. Ashe. It comes from all of the above and more, and we 
rely on university researchers. We rely on graduate students, 
wherever the manager can assemble the information. And you are 
right, we encourage our managers, in the comprehensive planning 
process, to look at the refuge in context of the landscape 
around them, both the historical context of that landscape and 
the current context of the landscape. And those are, again, 
that requires some judgment on the part of the manager, 
especially to look back and try to determine how that system 
functioned before there were large-scale alterations, dams and 
rivers or fences on the prairie or large-scale agriculture, 
things like that.
    So it does require the exercise of judgment on the part of 
the manager, hopefully, with the benefit of good information.
    Dr. Beard. Could I address that for a second?
    Mr. Gilchrest. Yes.
    Dr. Beard. Because you gave a long test and a long exam 
question, and I want to jump in and take a crack at it.
    It seems to me that, as you have been discussing this 
problem with Mr. Ashe, the one thing we all need to do is put 
on our common-sense hat here. What we are doing is we have a 
tremendous land management system, and the policy makes eminent 
sense to me. We have got to know what the resources are that 
are on these lands. If we don't know that, how can you manage 
them intelligently?
    The second thing you have to know is what are the threats? 
It doesn't mean you have to address them all, but at least you 
have got to catalogue the threats that are there. The threats 
are substantial, as we have pointed out in our report.
    The third item is you have to figure out the different ways 
of addressing those threats. It doesn't mean you have to 
address them, but at least have a strategy for trying to deal 
with them.
    I think what is more disturbing is the whole question of 
the plans. As Mr. Ashe pointed out, there is a statutory 
deadline here which, at the time, was set at 15 years to do 
these plans. We are now 11 years out from the deadline, and we 
are being told that they are not going to make it. Well, it 
seems to me that what we need to do is get people off their 
duff and get working, either get more resources, get better 
management or do something. In 11 years, with all due respect, 
I will probably be retired, one of your constituents, Mr. 
Chairman, on the Eastern Shore, and bugging you with letters.
    Mr. Gilchrest. You will be wearing suspenders by then.
    Dr. Beard. Hopefully, I will be in Margaritaville with 
Jimmy Buffett.
    [Laughter.]
    Dr. Beard. But I will be somewhere. But that is 11 years 
from now. It seems to me this is one of the crown jewels of our 
land management system. We have got to get on with it, and the 
job is not that difficult. We don't have to make this complex. 
Other land management agencies have done this. It is not a 
hopeless exercise, and it seems to me that we are all committed 
to doing it and finding a solution.
    Mr. Gilchrest. Dr. Beard, with your experience in this 
area, now, I don't have a biological degree, I was a civics 
teacher in a local high school that accidentally got elected to 
Congress--
    [Laughter.]
    Mr. Gilchrest. --literally. But I have always liked to 
spend time outdoors. And it seems, from a nonscientific 
background, that to walk over a refuge, if I was the 
responsible party for that refuge, you know, barring a 19-
million-acre refuge, but looking at 30,000 acres, 50,000 acres, 
100,000 acres, even a million acres, that within a given period 
of time, I would have some sense, by partnering with people, 
what the flora and fauna was out there. And while you were 
addressing that issue, you would also be, I assume, getting 
some essence of that natural ecosystem over a set period of 
time, maybe designated before it was in a highly populated 
area, and then having an understanding of the resources, the 
present threats that there are to that resource, and then how 
to address those threats.
    So, Dr. Beard, in your sense, do you think, with the 
present acreage under Fish and Wildlife, that they could 
complete it in a competent fashion on or before that date?
    Dr. Beard. Yes. I think that the question is how do you do 
it. If you do it only with Federal employees or you do it the 
way they are currently doing it, you are not going to make it. 
They have already told us that. They have told us that if we 
continue to do this the way we have been doing it, and 11 years 
go by, we won't finish the job. So it strikes me that if you 
know you are not going to make it, then the management of the 
Fish and Wildlife Service has to figure out a different way to 
do it.
    There are literally thousands of people in this country who 
want to help--30,000 volunteers. We have 60,000 people every 
December that work on the Christmas bird count, volunteers who 
go out and do inventory work. We have something called a Great 
Backyard Bird Count, which is one weekend in February. This 
last February, 75,000 people went out and participated in that 
program. There are literally tens of thousands of people in 
this country that can help with data collection, analysis. 
There are volunteers. We can work to build a constituency to 
raise more money from the Congress or from other sources.
    So there are enumerable ways of addressing this issue. If 
we have got 11 years to work on it, we have got a lot of time 
to address the problem.
    Mr. Gilchrest. Dr. Sparrowe, did you want to comment on 
this?
    Dr. Sparrowe. I agree with many of the things that Dan has 
just suggested. I think we do need to address some of these 
other--
    Mr. Gilchrest. Is that Dan Ashe or Dan Beard?
    Dr. Sparrowe. Both, actually.
    [Laughter.]
    Dr. Sparrowe. Both Dans. I think there should be some ways 
to make this work. I think it is appropriate that the Service 
tell us now that they are having trouble going about it the way 
they are going about it.
    If we look at what is going on throughout Government, one 
of the problems with these planning processes is at least 
partly caused by some of us sitting at this table, in that the 
challenges to everything an agency does results in a very 
formal legalistic process, both of getting public input and of 
writing these documents, and being concerned constantly that 
somebody is going to challenge you on the nuances of words and 
the nuances of phrases. This why some of us, for example, 
responded to the ecological integrity policy by reminding the 
Service that, hey, wait a minute, the purpose of the refuge may 
be something intrinsically different than restoring ecological 
integrity.
    Mr. Gilchrest. I was going to ask you about that.
    Dr. Sparrowe. Yes, I mean, if you look at it, a migratory 
bird refuge, for example, many of them, are in agricultural 
areas where much of the landscape has been changed. And if you 
think about what the past must have been like--and there is 
information about this--the resources available to migratory 
birds were dispersed in lots of little areas that occurred with 
flooding, and with blow-downs, and after fires, and all kinds 
of other disturbances. All of that is gone now. We have a 
landscape that is managed by people to produce crops and to 
live there. So a refuge, in that context, often is an island of 
habitat within a vast area that has been markedly changed, 
probably forever. So the refuge itself, as this postage stamp, 
has to be looked at differently than just looking at the 
landscape and like it was pre-Colombian times.
    So wrestling with some of these concepts is not easy.
    Mr. Gilchrest. But do you think it is a good idea, just for 
planning purposes, to have some sense of what it looked like 
pre-1500 to the way it looks like now so that, if you are going 
to create a conservation plan, you will look for what used to 
be and what is likely to be more successful, as far as habitat 
is concerned, what that ecosystem probably was like then, 
including the flora and fauna that kept that ecosystem 
together? And while creating a conservation plan--I think I 
said this the other day--if the--this is sort of an elementary 
example--but in a refuge in Maine, you wouldn't want to plant 
magnolia trees.
    But the ecological integrity, and I understand some of the 
ramifications of that are legal terms, you put that in a 
Government document, that creates problems. But as far as the 
conservation plans are concerned, some knowledge of the 
ecosystem pre-1500, and adapting that into a conservation plan, 
would that be a good idea?
    Dr. Sparrowe. The key and operative word, I think, is 
``where appropriate,'' which occurs throughout a lot of this 
stuff. In some cases, it would not be appropriate. It would not 
tell you much. Certainly, when a manager takes a look at what 
he's going to do in the landscape, he or she, they should look 
at the historical context, and the flora and fauna that were 
there and lots of other things.
    But then the next step is also to keep in mind what is the 
purpose of this refuge. Where appropriate, they can restore 
habitats that are illustrative of the past and lots of really 
good important things. That is different than starting out by 
saying, well, my job is to restore what used to be here a 
thousand years ago or 200 years ago. That isn't necessarily the 
first step that is going to be very helpful, but certainly the 
knowledge about what was there and how it all worked is very 
important to the process.
    Mr. Gilchrest. Thank you.
    Does anybody else want to make a comment either to the Fish 
and Wildlife limit on creating these conservation management 
plans over the next 11 years or the term ``ecological 
integrity''?
    Mr. Ashe. I will make a comment on the former, Mr. 
Chairman.
    I guess, as I said, all I am trying to do is tell the 
Subcommittee where we are and give you an honest impression of 
where we are today, as I see it today, given our current level 
of effort. And as Dan said, and I would say, of course, if we 
increased our level of effort, then we could accomplish 
comprehensive conservation planning faster.
    But I think what the hearing today, in my view, has 
probably given the Subcommittee a good understanding of the 
issues they are facing, the Fish and Wildlife Service, in 
managing the Refuge System. Do we grow or do we not grow the 
Refuge System? Do we repair dilapidated lodges and other 
structures or do we not repair them? Do we control invasive 
species or do we not control them? Do we do CCPs on time or do 
we not do them on time? Do we restore where appropriate or do 
we not? All of those are all questions that face every refuge 
manager almost every day. And given the available resources to 
manage the Refuge System, those are challenging questions for 
us.
    And so when Congress gave us a task to do comprehensive 
planning for 93 million acres of land, they gave us $4.5 
million to do that job. Multiply 4.5 by 15, and that will tell 
you, over that 15-year period, how much we have to do the job 
of comprehensive planning. That is not enough. We are 
subsidizing that effort now to the tune of an additional $4 
million. So we have pulled from our operating budget another $4 
million so that our level of effort is actually twice what 
Congress had given us specifically for the task. But those are 
the resources that we have been given to do the job, and over a 
15-year window of time, given all of the other things, the 
challenges that are facing the Refuge System, it is a difficult 
task, at best.
    Mr. Gilchrest. I think you expressed it very well.
    Mr. Hansen and myself have sent a letter to the President 
asking him to increase the budget for Fish and Wildlife by $75 
million, and we hope we can work with the appropriators and 
convince the President that because of the comprehensive nature 
of Fish and Wildlife's responsibilities, that is certainly a 
minimum that is warranted.
    I want to thank all of you for coming today. And as we move 
through this, depending how long I stay here or I don't really 
drink margaritas, but--
    [Laughter.]
    Mr. Gilchrest. --a cup of coffee and a piece of apple pie 
in the backyard is always nice. But I do want to partner with 
each of you to, over the next couple of months, set some goals 
so that we can all focus, in a partnership way, and understand 
that each of us is in a position where we are not only 
challenged, but unlike most Americans, we have an extraordinary 
opportunity to actually do something about the things that 
millions of people can only talk about. And so I would like to 
partner with each of you over the next few months, certainly 
before the end of this first session, to set some goals for 
ourselves and work out a strategy to complete the task.
    [A statement submitted for the record by the Defenders of 
Wildlife follows:]

Statement of Noah Matson, Refuge Program Manager, Defenders of Wildlife

    Mr. Chairman and Members of the Subcommittee:
    On behalf of Defenders of Wildlife's 430,00 members and supporters 
nationwide, I appreciate the Committee's interest in these important 
issues facing the National Wildlife Refuge System. Defenders of 
Wildlife has been a long-time advocate for the Refuge System. The 1997 
National Wildlife Refuge System Improvement Act (Refuge Improvement 
Act) was a turning point for the Refuge System and represents 
Congress's commitment to this great system of lands. Defenders has been 
closely following the implementation of the promises made to the 
American people by the Refuge Improvement Act.
    The National Wildlife Refuge System is one of our nation's most 
impressive achievements, maintaining America's proud wildlife legacy 
for present and future generations. Increasingly, this incredible 
system of lands is hampered in carrying out its mission by its limited 
budget. Funding issues are not new to the Refuge System, in fact early 
in the history of the Refuge System, private organizations actually 
paid the salaries of refuge managers. Half a century later, the 1978 
National Wildlife Refuge Study Task Force recognized that refuges 
suffered from ``a long-standing problem of [inadequate] funding and 
manpower.'' \1\ While Congress has recognized these funding issues and 
has been generous with appropriations in recent years, more progress 
must be made.
---------------------------------------------------------------------------
    \1\ National Wildlife Refuge Study Task Force, Recommendations on 
the Management of the National Wildlife Refuge System. 1978. Quoted in: 
Fink, R.J. 1994. The National Wildlife Refuges: Theory, Practice, and 
Prospect. The Harvard Environmental Law Review. Volume 18 (1).
---------------------------------------------------------------------------
    National Wildlife Refuges are becoming increasingly important as 
strongholds of wildlife habitat as 3 million acres of land are consumed 
by development every year. \2\ At the same time, the public is 
demanding more recreational opportunities on our public lands, 
including refuges. Refuges which had been able to get by with a handful 
of staff and surplus U.S. Army equipment are being strained by these 
growing pressures.
---------------------------------------------------------------------------
    \2\ U.S. EPA. Our Built and Natural Environments, A Technical 
Review of the Interactions between Land Use, Transportation and 
Environmental Quality. EPA 231-R-00-005, November 2000.
---------------------------------------------------------------------------
    Increasing funding for the Refuge System is essential for 
implementing the Refuge Improvement Act which provides a mechanism for 
dealing with these pressures. The Refuge System centennial in 2003 
presents an unprecedented opportunity to accomplish this goal.
Implementation of the Refuge Improvement Act: Fish and Wildlife Service
                        Accomplishments to Date
    The Fish and Wildlife Service (FWS) has taken its new 
responsibilities under the Refuge Improvement Act seriously. Since 
passage of the Refuge Improvement Act, the FWS has issued final a 
Refuge Planning Policy, final Compatibility Regulations and Policy, and 
a final Biological Integrity, Diversity, and Environmental Health 
Policy. In addition, currently available for public comment are draft 
policies on Appropriate Use, Wilderness Stewardship, Mission Goals, 
General Recreation, and individual policies for the six priority public 
uses: hunting, fishing, wildlife photography and observation, and 
environmental education and interpretation. These are sound policies 
grounded in science and refuge law that provide clear direction to 
refuge managers, and the FWS should be commended for its efforts 
crafting them.
    Perhaps the most important avenue for implementing the Refuge 
Improvement Act is the mandated Comprehensive Conservation Planning 
(CCP) process. The FWS has taken a number of steps towards developing 
CCPs. The FWS issued its final Refuge Planning Policy in May of 2000 
which will improve the quality and consistency of CCPs. In August, 
2000, the FWS convened the first ever meeting of refuge planners at the 
National Conservation Training Center in West Virginia. This meeting 
was a huge success, bringing planners together to share ideas and 
experiences and to learn about changes in national policy and from 
others outside the FWS, including planners from other federal land 
management agencies. Planning is new to the FWS, and this type of 
interaction and learning is imperative to continually evaluate progress 
and improve the planning process.
    The CCP process currently underway by the FWS is the first 
systematic planning effort ever conducted by the Refuge System and is 
the main avenue for implementation of the 1997 National Wildlife Refuge 
System Improvement Act (Refuge Improvement Act). Planning is the 
cornerstone of sound wildlife and land stewardship, and the other 
federal land management agencies have been planning for some time. 
Congress recognized this when crafting the Refuge Improvement Act and 
provided clear direction for the FWS when preparing CCPs. The FWS is to 
manage each refuge with an approved CCP that is consistent with the 
Refuge Improvement Act and which identifies (A) the purposes of each 
refuge; (B) the distribution, migration patterns, and abundance of 
fish, wildlife, and plant populations and related habitats within the 
planning unit; (C) the archaeological and cultural values of the 
planning unit; (D) such areas within the planning unit that are 
suitable for use as administrative sites or visitor facilities; (E) 
significant problems that may adversely affect the populations and 
habitats of fish, wildlife, and plants within the planning unit and the 
actions necessary to correct or mitigate such problems; and (F) 
opportunities for compatible wildlife-dependent recreational uses. 
Additionally, the FWS is to actively involve the public in the 
development of CCPs.
    Since passage of the Refuge Improvement Act, 22 CCPs have been 
completed. Defenders of Wildlife has visited and submitted comments to 
many of these refuges. While each of these plans and the planning 
processes that led to them could be improved, all support the mission 
of the Refuge System. All of the plans completed outline the many 
ecosystem management activities refuges are engaged in. These ecosystem 
management activities vary widely depending on the size and biological, 
administrative and social context surrounding the refuge. For example, 
the very establishment of Little River National Wildlife Refuge (NWR) 
in Oklahoma and Pond Creek NWR in Arkansas contribute to ecosystem wide 
goals of protecting and restoring declining bottomland hardwood 
forests. Most refuges work very closely with other federal and state 
agencies to accomplish their purposes. A.R.M. Loxahatchee NWR in 
Florida has developed a very close relationship with the U.S. Army 
Corps of Engineers and the South Florida Water Management District to 
manage water levels in the refuge balancing the needs of wildlife, the 
Everglades Agricultural Area, and the growing urban areas of southeast 
Florida. Many refuges work closely with volunteering landowners to 
further the needs of wildlife. Florida Panther NWR is coordinating 
ecosystem restoration projects within their watershed using a variety 
of federal cost-share and wetland protection programs.
    These plans have improved refuge management and raised the 
visibility of the individual refuges in their communities. The next 
generation of plans will build on the successes and failures of the 
first round of CCPs.
                    Fish and Wildlife Service Needs
    Under current funding levels, the FWS will not be able to complete 
quality CCPs in time for its statutory deadline of 2012. CCPs take 
time, personnel, and money to compile essential background information, 
hold public meetings, synthesize input from the public and other 
government agencies, develop alternatives and draft plans, and 
physically print draft and final plans.
    The time and personnel demands of planning must also be viewed in 
the context of the funding issues for refuges in general. The FWS 
estimates that their efforts to develop CCPs for Fiscal Year 2001 will 
cost $8.3 million, yet FWS only received $4.5 million dedicated to the 
CCP process. Funding shortfalls have led to many refuges lacking 
essential staff, forcing refuge personnel to assume the duties of 
multiple positions; dedicating them to writing a CCP takes them away 
from other important refuge functions. At the same time, key refuge 
staff, particularly the manager, need to be involved in their own CCP.
    The CCP requirements of the Refuge Improvement Act are important 
for refuge management. One would think that the requirement to identify 
and describe ``the distribution, migration patterns, and abundance of 
fish, wildlife, and plant populations and related habitats within the 
planning unit'' would be readily available for every wildlife refuge. 
Yet even with its ``wildlife first'', science-based mission, not every 
refuge has a biologist. Even on refuges with a biologist on staff, the 
biologist may spend a large amount of time doing maintenance activities 
because of other staff shortages. A survey of refuges from the early 
1990's found that only 60% of refuges have inventories of birds, and 
for other groups of species the numbers are less than 30%. Without 
knowledge of the status, trends, and responses to management of 
biological systems, refuges cannot effectively plan for the 
conservation of fish, wildlife, and plants.
    The FWS ``wildlife-first'' mandate clearly necessitates the above 
shortcomings being addressed. Refuges are also important for wildlife-
dependent recreation and education, and the Refuge Improvement Act 
clearly states that these uses should be facilitated when compatible 
with a refuge's purpose and the mission of the System. A refuge cannot 
effectively plan and manage these uses, however, without essential 
information on what values the public places on the refuge, and the 
demographic, social, political, and economic context. Nor can a refuge 
properly manage uses without fully understanding their impacts on 
refuge resources.
    Increasing the operations budget for the Refuge System will help 
alleviate many of the above management issues and will have a direct 
impact on the ability of the FWS to complete quality CCPs. A concern 
has been raised about the potential for CCPs to generate more refuge 
operations projects, which will increase the backlog and needs. CCPs 
are intended to comprehensively evaluate refuge management to ensure 
that refuges are fulfilling their purposes, the mission of the System, 
and other statutory duties. Because of chronic funding shortfalls, many 
refuges will likely identify glaring needs during the CCP process to 
fulfill these duties. This should be viewed as a benefit of the CCP 
process, not a concern, because planning will ultimately improve refuge 
management to fulfill the promises that have been made to the American 
people to have a Refuge System that protects and maintains our wildlife 
heritage and exposes the public to the many values wildlife have in our 
society.
    Lack of funding for planning has created staffing shortages at the 
regional level, as well, which is creating a backload of planning work. 
All CCPs must go through the regional level for input, editing, and 
approval. Delays at this stage in the process not only frustrate field 
personnel, but the public loses faith in the planning process as the 
plan seems to disappear for months or even a year.
    After participating in the CCP process, the public has expectations 
for how refuges are managed. Several refuge managers who have completed 
CCPs have said that the public has asked why the projects in the plan 
aren't being carried out and expressed frustration, anger, and 
disappointment that the refuge hadn't made it more clear that the 
projects were contingent on funding. Not being able to carry out its 
CCPs is a huge credibility problem for the FWS. Again, CCPs are 
designed to ensure that refuges are fulfilling their obligations. The 
CCPs completed to date are not pie in the sky plans filled with 
excessive funding requests for pet projects - they outline the refuges' 
goals based on their statutory duties and what they need to carry out 
those goals.
                               Conclusion
    The National Wildlife Refuge System is playing an increasingly 
important role in protecting and restoring America's wildlife and 
wildlife habitat and in exposing the public to our wildlife heritage. 
Increased funding for the National Wildlife Refuge System is an 
investment in our wildlife heritage.
    Defenders of Wildlife thanks the committee for holding this hearing 
and is encouraged that the needs of the National Wildlife Refuge System 
are generating such interest.
                                 ______
                                 
    Mr. Gilchrest. Thank you all very much. The hearing is 
adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]

                                   - 
</pre></body></html>
